<html>
<title> - HOLDING EPA ACCOUNTABLE FOR POLLUTING WESTERN WATERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      HOLDING EPA ACCOUNTABLE FOR
                        POLLUTING WESTERN WATERS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 9, 2015

                               __________

                           Serial No. 114-36

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-755 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana























                            C O N T E N T S

                           September 9, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................     9

                               Witnesses:

The Honorable Mathy Stanislaus, Assistant Administrator, Office 
  of Solid Waste and Emergency Response, Environmental Protection 
  Agency
    Oral Statement...............................................    10
    Written Statement............................................    13

Mr. Dennis Greaney, President, Environmental Restoration LLC
    Oral Statement...............................................    28
    Written Statement............................................    30

The Honorable Donald Benn, Executive Director, Navajo National 
  Environmental Protection Agency
    Oral Statement...............................................    36
    Written Statement............................................    38

The Honorable Dean Brookie, Mayor, Durango, Colorado
    Oral Statement...............................................    56
    Written Statement............................................    59

Dr. Mark Williamson, Geochemist, Geochemical Solutions LLC
    Oral Statement...............................................    80
    Written Statement............................................    82

Discussion.......................................................    86

             Appendix I: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   116

Slide submitted by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   236

 
                      HOLDING EPA ACCOUNTABLE FOR
                        POLLUTING WESTERN WATERS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2015

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    And welcome to today's hearing titled ``Holding EPA 
Accountable for Polluting Western Waters.'' I'll recognize 
myself for an opening statement and then the Ranking Member.
    Over the last year, the Environmental Protection Agency has 
proposed some of the most expensive and burdensome regulations 
in its history. These rules will cost American families 
billions of dollars, all for little impact on climate change. 
These rules also will diminish the competitiveness of American 
workers around the world.
    The same government agency that has proposed these rules 
recently caused an environmental disaster that has adversely 
impacted three states in the Mountain West. On August 5th, near 
Silverton, Colorado, the negligent actions of the EPA caused 
over three million gallons of toxic water to cascade out of a 
mine that had been closed for almost a hundred years. This 
event turned the Animas River orange and polluted a 300-mile 
stretch of water.
    Today, we will examine how this disaster, which negatively 
affected thousands of people, occurred and why the warning 
signs that should have prevented it from happening were 
negligently dismissed. Had the EPA exercised the same care in 
making their decisions as an ordinary, prudent person, this 
whole incident could have been avoided.
    The EPA should be held accountable. The same standards that 
the EPA applies to private companies should also apply to the 
EPA itself. Unfortunately, EPA Administrator Gina McCarthy has 
declined to appear before this Committee and answer questions 
about the role her Agency played in causing this preventable 
spill. Perhaps she doesn't have any good answers. Given the 
EPA's consistent failure to provide information to this 
Committee and the American people, the EPA can be assured that 
our oversight efforts will continue.
    The public deserves to know why the EPA continues to spend 
so much of their hard-earned dollars on costly and ineffective 
regulations, especially when the agency has been unable to 
achieve its core mission of protecting the environment. The 
story of the mine disaster would be much different if this 
spill had been caused by a private company. I suspect there 
would be calls from this Administration and others for the 
executives of the company to resign. There would be demands 
that all documents be posted immediately online. Massive fines 
would be imposed. And, no doubt, some individuals might be 
prosecuted as happened in the 2014 West Virginia chemical spill 
where 7,500 gallons of chemicals were dumped into the Elk 
River. This is about one four hundredth of the amount of toxic 
water dumped into the Animas River. Six former officials from 
the company responsible for the leak were indicted for 
violations of the Clean Water Act.
    The EPA's negligence is especially inexcusable since there 
were known procedures that could have prevented the river's 
pollution. Unfortunately, we have seen a pattern of the EPA's 
lack of transparency. This Committee asked for information from 
the EPA almost a month ago and we have yet to receive all the 
documents that were requested. According to news reports, it 
took the EPA over 24 hours to inform the public about the 
seriousness of the spill and their initial claim of one million 
gallons of toxic waste was later revised when it was learned 
that it was actually three million gallons. Then, after the 
incident, all we heard from the EPA was that the toxic water in 
the river was dissipating, and that the river was returning to 
pre-spill levels. The EPA neither took responsibility nor were 
they forthright with the American people. So it's not 
surprising to learn that just this past spring the EPA received 
a grade of D for its lack of openness and transparency, 
according to the nonpartisan Center for Effective Government. 
It is my hope that the EPA will finally come clean with the 
American people about their involvement in this tragic 
incident.
    [The prepared statement of Chairman Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                        Chairman Lamar S. Smith

    Over the last year, the Environmental Protection Agency (EPA) has 
proposed some of the most expensive and burdensome regulations in its 
history.
    These rules will cost American families billions of dollars, all 
for little impact on climate change. These rules also will diminish the 
competitiveness of American workers around the world.
    The same government agency that has proposed these rules recently 
caused an environmental disaster that has adversely impacted three 
states in the Mountain West.
    On August 5, near Silverton, Colorado, the negligent actions of the 
EPA caused over three million gallons of toxic water to cascade out of 
a mine that had been closed for nearly a hundred years. This event 
turned the Animas River orange and polluted a 300 mile stretch of 
water.
    Today, we will examine how this disaster, which negatively affected 
thousands of people, occurred and why the warning signs that should 
have prevented it from happening were negligently dismissed. Had the 
EPA exercised the same care in making their decisions as an ordinary 
prudent person, this whole incident could have been avoided.
    The EPA should be held accountable. The same standards that the EPA 
applies to private companies should apply to the EPA itself.
    Unfortunately, EPA Administrator Gina McCarthy has declined to 
appear before this Committee and answer questions about the role her 
Agency played in causing this preventable spill. Perhaps she doesn't 
have any good answers.
    Given the EPA's consistent failure to provide information to this 
Committee and the American people, the EPA can be assured that our 
oversight efforts will continue.The public deserves to know why the EPA 
continues to spend so much of their hard earned dollars on costly and 
ineffective regulations, especially when the agency has been unable to 
achieve its core mission of protecting the environment.
    The story of the mine disaster would be much different if this 
spill had been caused by a private company.
    I suspect there would be calls from this administration and others 
for the executives of the company to resign. There would be demands 
that all documents be posted immediately online. Massive fines would be 
imposed.
    And, no doubt, some individuals might be prosecuted as happened in 
the 2014 West Virginia chemical spill where 7,500 gallons of chemicals 
were dumped into the Elk River (this is about one four hundredth of the 
amount of toxic water dumped into the Animas River). Six former 
officials from the company responsible for the leak were indicted for 
violations of the Clean Water Act.
    The EPA's negligence is especially inexcusable since there were 
known procedures that could have prevented the river's pollution.
    Unfortunately, we have seen a pattern of the EPA's lack of 
transparency. This Committee asked for information from the EPA almost 
a month ago and we have yet to receive all the documents that were 
requested.
    According to news reports, it took the EPA over 24 hours to inform 
the public about the seriousness of the spill and their initial claim 
of one million gallons of toxic waste was later revised when it was 
learned that it was actually three million gallons.
    Then, after the incident, all we heard from the EPA was that the 
toxic water in the river was dissipating, and that the river was 
returning to pre-spill levels. The EPA neither took responsibility nor 
was forthright with the American people.
    So it's not surprising to learn that just this past spring the EPA 
received a grade of ``D'' for its lack of openness and transparency, 
according to the non-partisan Center for Effective Government.
    It is my hope that the EPA will finally come clean with the 
American people about their involvement in this terrible incident.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Eddie 
Bernice Johnson, is recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
appreciate the fact we are holding this hearing today.
    The August 5th release of three million gallons of 
wastewater from the Gold King Mine in Silverton, Colorado, into 
the Animas River was an unfortunate accident. I believe it is 
important to understand what happened on August 5th and why, 
and explore what lessons we can learn from this event. However, 
we should also take this opportunity to highlight the 
inherently dirty, dangerous, and environmentally damaging 
process of metal mining.
    Before this accident occurred, Gold King and a handful of 
other mines in the area were releasing more than 300 million 
gallons of acid mine waste into the Animas Watershed annually. 
Over the area's 120-year history of mining operations, more 
than 17.2 billion pounds of mining and milling byproducts 
containing toxic chemicals were released into this waterway. 
Unfortunately, residents of San Juan County are well aware that 
August 5th was not the first time the Animas River changed 
color. In the 1970s, mine accidents poured millions of gallons 
of wastewater into the river. Sadly, acid mine drainage in this 
area is routine and the occasional large scale release of 
wastewater due to accidents at mine sites is an all-too-common 
occurrence.
    I'd like to show a photo that ran in The Durango Herald 
newspaper in 2012 that shows toxic wastewater flowing from the 
American Tunnel three years before the recent accident at the 
Gold King Mine. The second picture was taken before the Red and 
Bonita Mine, and the wastewater is draining into the Cement 
Creek, a tributary that feeds into the Animas River. This 
photograph was taken in 2013.
    This was one of the key reasons the EPA was at the Gold 
King Mine site on August 5th. They were there attempting to 
investigate this longstanding problem of persistent acid mine 
drainage into the Animas Watershed from the Gold King and 
neighboring interconnected mines. EPA was also attempting to 
alleviate what was seen as an inevitable blowout at the Gold 
King mine due to a buildup of drainage water that may have been 
caused by the closure of the American Tunnel, a mine drainage 
system, at the nearby Sunnyside Mine. Unfortunately, they were 
obviously unsuccessful in trying to prevent a blowout from 
occurring.
    These next two photos show the discoloration of the Animas 
River immediately after the August 5th accident, and the next 
two photos show what the Animas River looked like August 12th 
and August 14th, 7 and 9 days after the Gold Mine accident.
    Fortunately, the metal concentrations in the water that led 
to the discoloration of the Animas River quickly returned to 
pre-incident levels. I am not discounting the significance of 
the August 5th event at the Gold King Mine but its potentially 
environment impact--or its potential environmental impact, but 
it is important to understand that the issue of mine drainage 
into the Animas Watershed did not begin last month.
    The EPA was acting as an environmental firefighter when 
they went to the Gold King Mine. They were attempting to damp 
down a raging environmental hazard that had endangered the 
Animas Watershed for decades. Unfortunately, when they opened 
an exploratory hole, the buildup of wastewater drainage was too 
much to effectively control.
    I hope that our witnesses, particularly Mayor Dean Brookie, 
the Mayor of Durango, Colorado, located 50 miles downstream 
from the Gold King and hundreds of other inactive mine sites, 
can help address both the events leading up to the August 5th 
blowout at the Gold King mine, the legacy of metal mining 
operations on the Animas Watershed, and useful next steps to 
consider in helping to prevent further environmental 
degradation in this truly beautiful region of our nation.
    Thank you Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Good morning and thank you, Mr. Chairman. I would also like to 
thank our distinguished panel of witnesses for their testimony on this 
important and timely issue.
    I want to echo the comments of Ranking Members Beyer and Grayson 
regarding the need for a critical examination of our country's electric 
grid. Today's grid is the foundation of our economy and much of our 
infrastructure, and millions of American homes, businesses, and 
livelihoods depend on its reliability.
    Investing in new, diverse energy sources is an important part of 
securing our clean energy future, but these investments are put at risk 
if we don't immediately address vulnerabilities to the grid, as well as 
form a plan in the event of a large-scale grid failure.
    Given our current state of preparedness, a coordinated 
cybersecurity or terrorist attack, or a major natural disturbance of 
the type we'll be hearing more about today, could leave a large portion 
of the United States dark for months and result in billions of dollars 
in economic damages. But what may be even more concerning is that it 
would not take such a disastrous phenomenon to render our energy 
infrastructure useless. Aging infrastructure presents a much more 
likely and just as problematic vulnerability as the more eye-catching 
disasters that are often mentioned as being serious threats to the 
grid. With no current means to quickly recover from a high magnitude 
power outage, we are putting the future of our country in jeopardy if 
we continue to ignore systemic vulnerabilities.
    This issue should not be taken lightly. We have seen the massive 
impacts that seemingly minor, preventable incidents can have on 
communities, such as the Northeast Blackout of 2003 that crippled a 
large regional area and brought their economies to a halt for days. 
This led to the loss of power for 50 million people.
    While this was one of the worst outages in our history, the grid is 
still plagued with numerous vulnerabilities over 12 years later. 
Intelligence professionals, scientists, and industry experts have all 
been urging the federal government to strengthen the nation's power 
supply for years now. And for those who worry about the cost of doing 
so, the U.S. Federal Energy Regulatory Commission estimates that 
protecting the grid would cost the average rate payer merely 20 cents 
annually.
    I am optimistic that this hearing will help to advance the progress 
that partnerships between governments and utilities have made so far in 
bolstering the grid against today's unique security challenges. I look 
forward to a productive and interesting discussion. With that, I yield 
back.

    Chairman Smith. Thank you, Mrs. Johnson, and I'll proceed 
to introduce our witnesses. Our first witness is the Honorable 
Mathy Stanislaus, the Assistant Administrator for the EPA's 
Office of Solid Waste and Emergency Response. Mr. Stanislaus 
was nominated and confirmed by the U.S. Senate for his current 
position at the EPA in 2009. He received his law degree from 
Chicago Kent Law School and a chemical engineering degree from 
City College of New York.
    Our next witness is Mr. Dennis Greaney, Managing Partner 
and President of Environmental Restoration LLC. He received his 
bachelor's of science in ecology from the University of 
Illinois, Urbana Champaign campus, and did graduate work in 
environmental toxicology at Illinois State University.
    Our next witness is Dr. Donald Benn, the Executive Director 
of the Navajo Nation's Environmental Protection Agency. Dr. 
Benn received his Ph.D. in chemistry from New Mexico State 
University.
    Our next witness is the Hon. Dean Brookie, the Mayor of 
Durango, Colorado. He received his bachelor's of environmental 
design and master's of architecture from the University of 
Colorado at Boulder.
    Our last witness is Dr. Mark Williamson, an Environmental 
Geochemist with over 25 years of experience. He has been 
involved in geochemical studies and site evaluations across the 
United States involving field, laboratory and computational 
components. Dr. Williamson's background includes extensive work 
with acid mine drainage, metals in aquatic environments, 
geochemical engineering, and the fate and transport of 
chemicals in the environment. He holds a Ph.D. from Virginia 
Tech, a master's degree from Northern Arizona University, and a 
bachelor's degree from Old Dominion University.
    Now, we welcome you all and look forward to your testimony, 
and Mr. Stanislaus, will you start us off?

            TESTIMONY OF THE HON. MATHY STANISLAUS,

                    ASSISTANT ADMINISTRATOR,

         OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE,

                ENVIRONMENTAL PROTECTION AGENCY

    Hon. Stanislaus. Good morning Chairman Smith, Ranking 
Member Johnson, and Members of the Committee. I am Mathy 
Stanislaus, Assistant Administrator for the U.S. Environmental 
Protection Agency's Office of Solid Waste and Emergency 
Response that is responsible for the EPA cleanup and emergency 
response program. Thank you for the opportunity to appear today 
to discuss the Gold King Mine release and subsequent EPA 
response.
    Located within the watershed of the San Juan Mountains in 
southwestern Colorado are some 400 former mines, which were the 
focus of both large- and small-scale mining operations for over 
100 years. The Gold King Mine is located in the upper Animas 
Watershed, which consists of three main streams: the Animas 
River, Cement Creek, and Mineral Creek. These mines have had a 
history of water siege containing heavy metals and instability.
    In 1991, mining ceased at the last big mine in the region, 
Sunnyside. Subsequently, based on a permit issued by the State 
of Colorado, Sunnyside installed three bulkheads in the 
American Tunnel that drained its mine while continuing to treat 
the metal-laden waters draining into Upper Cement Creek through 
a water treatment facility. After Sunnyside installed the 
bulkheads in the American Tunnel, water seeped into natural 
fractures that allowed it to flow into the Gold King and Red 
and Bonita Mines.
    Initially, these waters are run through a treatment system 
that Sunnyside built but Gold King Mine Company ultimately 
stopped operating the treatment system. In 2008, the State of 
Colorado continued its effort by constructing a water discharge 
diversion system and reclamation plant to address the potential 
for increased water pressure within Gold King Mine. Based upon 
data from 2009 to 2014, flow data, the average annual water 
discharge from Gold King Mine and three nearby mines reach 
approximately 330 million gallons per year.
    At the request of local stakeholders for EPA involvement, 
by 2014 EPA joined the Colorado Division of Reclamation Mining 
and Safety to address both the potential for water buildup at 
the Gold King Mine and ongoing adverse water quality impacts 
caused by these large mine discharges into the Upper Animas 
Watershed. Working with the State of Colorado and the Animas 
River Stakeholders Group, EPA developed plans to reduce 
potential mine water pressure and reduce mine discharges into 
Cement Creek and downstream waters.
    In 2014, initial work was performed at the Gold King Mine 
to relieve some water buildup. On August 5th, 2015, EPA was 
conducting an investigation of the Gold King Mine. Work was 
underway to dewater the mine pool to allow reopening to assess 
mine conditions to characterize ongoing mine discharges and 
determine appropriate mine mitigation measures. While 
excavating above a mine opening, the lower portion of bedrock 
crumbled and pressurized water of approximately three million 
gallons of water stored behind the collapsed material 
discharged into Cement Creek, a tributary of the Animas River.
    EPA and Colorado officials informed downstream 
jurisdictions within Colorado the day of the event and before 
the plume reached drinking water intakes and irrigation 
diversions. The following day, other downstream jurisdictions 
were notified again before the plume reached drinking water 
intakes and irrigation diversions. The notification warned 
downstream users so that drinking water intakes and 
agricultural intakes were able to be closed prior to downstream 
plume release reaching those intakes.
    However, broader notification should have occurred. I've 
issued a guidance memo to all ten regions to work with state, 
tribal and local partners to enhance our joint incident 
notification responsibility and processes. I understand the 
State of Colorado is moving forward in the same vein.
    On August 26, 2015, EPA released its internal review 
summary review, which includes an assessment of the events and 
potential factors contributing to the Gold King Mine incident. 
The internal review team found that the work went accounted for 
the possibility of pressurized mine water conditions due to the 
history of blockages of the Gold King Mine and the work plan 
identified steps to gradually lower the blockage and water 
buildup. The review team found that experienced professionals 
from the EPA and the State of Colorado concluded there was 
likely no or low mine water pressure. However, given the 
release that was in fact high enough water pressure to cause a 
blowout, the summary report concludes that an underestimation 
of water pressure inside the mine working was likely the more 
significant fact related to the release. The report indicates 
the site conditions made it difficult to undertake drilling to 
determine the pressure within the mine.
    I do have a lot more to talk about, but I'll take your 
questions and respond to those.
    [The prepared statement of Hon. Stanislaus follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
  
    Chairman Smith. Thank you, Mr. Stanislaus.
    And Mr. Greaney.

                TESTIMONY OF MR. DENNIS GREANEY,

            PRESIDENT, ENVIRONMENTAL RESTORATION LLC

    Mr. Greaney. Thank you, Chairman. Chairman Smith, Ranking 
Member Johnson, and other----
    Chairman Smith. Make sure your mic is on.
    Mr. Greaney. Let me start it again. Chairman Smith, Ranking 
Member Johnson, and other distinguished members of the 
Committee, thank you for giving me the opportunity to testify 
on a recent incident at the Gold King Mine.
    My name is Dennis Greaney. I serve as President and 
Managing Partner of Environmental Restoration and have served 
in that role since the company was founded in 1997. I've worked 
in the field of hazardous waste remediation and emergency 
response my entire career going back 30 years. We were one of 
the organizations involved in EPA's efforts at the Silverton 
site. We stand firmly behind our project management team and 
labor force there.
    That said, as professionals who have dedicated our entire 
careers to cleaning up the environment, the end result was 
heartbreaking, to say the least.
    If I may, I'd like to give you a bit of background about 
our company. Environmental Restoration is an environmental 
remediation response company that provides services to 
industry, commercial and state as well as federal agencies, and 
we're very passionate about our work and we're very proud and 
honored to have provided services to some of our nation's 
largest responses including the Deepwater Horizon, the 
aftermaths of Tropical Storm Lee, Hurricanes Sandy, Irene, 
Katrina and Rita, the space shuttle Columbia disaster, the 2001 
anthrax response, both at the Hart Senate Office Building as 
well as the Postal Service's, and finally, the 9/11 attacks on 
the World Trade Center.
    As a company, Environmental Restoration is committed to 
providing a safe work environment for our workers. That is our 
number one priority. We can demonstrate that through our 
experience modification rate, which is a .72 compared to an 
industry standard of one. We're nearly 30 percent safer than 
everyone else in our industry.
    As with many EPA environmental removal projects, we were 
one of several organizations with assigned roles at the Gold 
King Mine. For the Gold King, Environmental Restoration was 
issued a Task Order. Our Task Order requested us to open the 
portal, which is the opening to the mine, as well as 
rehabilitate the mine opening to allow safe passage into the 
mine and then create safe access 75 feet into the mine tunnel. 
Within that Task Order, we had some sub elements which included 
a site preparation phase, which was construction of roads, 
staging areas, water retention and treatment ponds, water 
management for water that was assumed to be back behind some of 
the blockage within the mine, and again, the rehabilitation of 
the mine tunnel and opening up of the 75 foot of the mine 
tunnel.
    Data provided to Environmental Restoration indicated that 
we were to anticipate water approximately six feet deep on the 
back side of the blocked entrance within an approximately ten-
foot-tall mine. The gallons estimated behind that blockage was 
250,000 gallons. As we now know, there was much more water 
behind the blocked mine entrance than experts believed.
    I was not personally involved or on the site when the 
release occurred. However, there's what I've learned. The 
release occurred during a preliminary trip to the mine and 
prior to Environmental Restoration initiating our work of 
opening the mine. During this preliminary trip, we were 
directed to remove rubble and debris that had caved in over the 
mine opening in an effort to expose the bedrock above the mine 
tunnel. The removal of the material was carried out with all 
due caution over a two-day period and under the guidance of the 
EPA on-scene Coordinator and abandoned mine representatives 
from the Colorado Inactive Mine program. The Gold King Mine 
release occurred following the removal of rubble from above the 
entrance.
    The Gold King Mine incident is a terrible misfortune for 
the Animas River and for all those who live along it and make 
their living from it, and it was really gut-wrenching to watch 
the after effects of the release. This in no way reflects who 
we are as a company. We're very proud of our track record. 
We've conducted 1,300 Task Orders for the U.S. EPA as well as 
over 10,000 other projects for industry and commercial clients 
as well as other federal agencies. We're very grateful to have 
the opportunity to contribute to help safeguard people and the 
environment, and we hope to continue in that capacity for a 
long time.
    I'd like to thank you for your attention and time, and I'm 
open to answer questions to the best of my ability.
    [The prepared statement of Mr. Greaney follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Chairman Smith. Thank you, Mr. Greaney.
    And Dr. Benn.

               TESTIMONY OF THE HON. DONALD BENN,

                      EXECUTIVE DIRECTOR,

        NAVAJO NATIONAL ENVIRONMENTAL PROTECTION AGENCY

    Hon. Benn. Chairman Smith, Ranking Member, and Members of 
the Committee, my name is Dr. Benn. I'm a chemist by trade, and 
I'm the Executive Director of the Navajo Nation Environmental 
Protection Agency. Thank you for this opportunity to testify on 
a matter that is of great importance to the Navajo Nation.
    On August 5th, 2015, United States EPA and other parties 
caused a massive release of toxic contaminants from the Gold 
King Mine. The toxic sludge flowed into San Juan River and 
through 215 miles of the Navajo Nation's territory. The Navajo 
EPA had a close relationship and a good working relationship 
with EPA--with U.S. EPA. However, recent events have shifted 
that relationship to one of lack of trust.
    Today I would like to cover only a few of the many critical 
areas of concern for the Navajo people. These issues and others 
are covered more extensively in my written remarks.
    First, the U.S. EPA delayed notification of the spill to 
the Navajo Nation. The nation was not informed of the release 
until August 6th. The U.S. EPA also demonstrated a complete 
lack of transparency. The initial U.S. EPA warning served to 
downplay the magnitude of the risk of human and animal health, 
and later reports by U.S. EPA were incomplete. Additionally, 
the Navajo Nation expressed concern for the U.S. EPA handing 
out and encouraging members of the Navajo Nation to fill out 
their standard form 95 to expedite settlement of their claims. 
These incidents have led to a culture of distrust by the Navajo 
Nation towards the U.S. EPA both among our farmers and our 
leadership.
    I also want to lay out some of the devastating impacts to 
the Navajo Nation. However, I want to stress that all the 
impacts are yet unknown. First, families have the immediate 
impact of the additional costs of water delivery and other 
expenses to yet--despite this effort they saw their crops dying 
each day. Second, the loss of crops and replacement of those 
crops, their seeds and feed for their livestock and other 
expenses triggers a cycle of long-term economic losses for a 
nation that has already--already has 42 percent unemployment 
rate. Third, long-term health effects of the spill are unknown 
and not fully understood. Fourth, the Navajo Nation's culture 
and spiritual impacts are felt mostly pointedly in the 
disruption of our cultural principle of hozho that encompasses 
beauty, order and disharmony.
    In light of the devastating impacts from the spill, both 
known and unknown yet, we need to act quickly and thoughtfully. 
We therefore ask for the following. Number one, we need 
resources to address the immediate emergency. This includes 
continued delivery of water and the delivery of hay to impacted 
ranchers. The EPA should also establish a relief fund for 
individual farmers--ranchers and farmers. We also need true 
emergency response coordination with FEMA.
    Number two: We need resources to conduct our own water 
sediment and soil monitoring and the authority for Navajo EPA 
to do the necessary work. We propose to conduct these duties 
under the Navajo Nation as opposed to relying on the U.S. EPA. 
We will require an onsite lab and additional staffing to manage 
the sampling and lab performance.
    Number three: We need assistance to create redundant and 
auxiliary water supplies and reservoirs to guard against future 
contaminations.
    Number four: We will require funding assistance and 
resources to monitor, study and address the long-term health 
and environmental effects of the spill and return the river to 
its pre-spill state.
    Number five: Due to U.S. EPA's conflict of interest, we 
seek to fare an independent assessment of the U.S. EPA's and 
others' roles in the spill and the establishment of a different 
lead agency. No other environmental bad actor will be given 
leeway to investigate itself and determine to what extent it 
will be held accountable. We believe another agency ,such as, 
FEMA should take the lead on the response and an independent 
body should conduct the investigation.
    Again, thank you for your time and attention to this 
important issue. I welcome any questions from our Committee.
    [The prepared statement of Hon. Benn follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Smith. Thank you, Dr. Benn.
    And Mayor Brookie.

              TESTIMONY OF THE HON. DEAN BROOKIE,

                    MAYOR, DURANGO, COLORADO

    Hon. Brookie. Thank you, Chairman Smith, Ranking Member 
Johnson, and honorable Members of the Committee for the 
opportunity to testify today. I am Dean Brookie, Mayor of 
Durango, Colorado, a city of 18,000 residents at the base of 
the San Juan Mountains along the Animas River.
    I have lived, worked and recreated in these mountains since 
1980. Since its founding, our community has depended on the 
virtues of the natural environment as its lifeblood. Our mining 
heritage is important, but our current economy is not dependent 
on mining, rather, our mining history, outdoor recreation, the 
arts, other natural and cultural amenities.
    The August 5th mine waste release into the Animas River put 
a technicolor spotlight on the massive and complex century-old 
problem that our communities have lacked the resources to 
address. The fact is that three million gallons of acid mine 
water were released out of the Gold King Mine that day. 
However, this is not just a one-time incident. About three 
million gallons of mine water drain out of the Gold King each 
week prior to and subsequent to this event. That is the quiet 
but real catastrophe that has largely gone unnoticed by the 
public until now.
    Our rivers are what bind us together as communities. The 
veins of the Animas River flow into other aquatic arteries of 
the West including the San Juan River, which flows through the 
Ute Mountain and the Navajo reservations before reaching Lake 
Powell. From there it joins the Colorado that flows to the 
Grand Canyon into Lake Meade, a water source for Phoenix, Las 
Vegas, Los Angeles and San Diego.
    It is tempting in times of crisis to point fingers and 
place blame. After 130 years, thousands of mines, millions of 
individual actors, and literally billions of gallons of 
polluted water, attempts to blame single agencies or 
individuals ignore the scale and complexity of the problem that 
needs to be addressed.
    We must continue to work together at the local, state and 
federal level and do much more quickly and with greater resolve 
to comprehensively address the water quality threats to our 
region before they result in far greater harm to our 
communities as well as additional costs to government.
    The EPA must be held accountable for this accident. Every 
indication we have received from them shows that they are 
taking this incident seriously. There is no denying they hands 
on the shovel, but the EPA was at the Gold King Mine trying to 
help address these longstanding environmental issues. In fact, 
the blowout could have happened naturally the day before or any 
day in the future.
    Without the EPA, the federal government more broadly--and 
the federal government more broadly, there is simply no option 
for addressing the risk to human health and environment caused 
by the region's mining legacy. Yes, we can and should hold 
responsible parties in the mining industry accountable as well. 
Local, state, tribal governments, not-for-profits, and 
businesses also have a role to play.
    Fundamentally, though, our community needs the scientific, 
technological and financial leadership of the EPA to guide a 
collaborative process for addressing the broader problem. I see 
before us a watershed moment: to turn a new chapter in mining 
history and protect our watersheds from Silverton to San Diego.
    I hope that the Committee will join us to achieve a 
comprehensive, science-based solution and will help to ensure 
that the EPA and other federal agencies have the resources and 
the clear direction needed to ensure the Gold King release is 
the last time we need to be reminded of this long-term problem 
before taking action.
    The City of Durango welcomes the Committee's help to 
address risks and vulnerabilities posed by water pollution in 
the Animas River including supporting the request of the EPA 
for over $50 million to build a new water treatment plant at 
Lake Nighthorse and create an important redundancy to our 
city's water supply. Responding to this event, a bipartisan 
coalition of four U.S. Senators and two Congressmen has asked 
the Administration to look at funding of a water treatment 
plant in Silverton as well.
    I encourage Congress to look at reforming the 1872 mining 
law that takes us from the 19th century into the 21st century 
and consider a royalty on mining companies, the same royalties 
currently paid by all other extractive industries that would be 
used for cleanup.
    Lastly, the Good Samaritan legislation proposed by 
Congressmen Tipton, Bennett and Udall during the last Congress 
could be an additional tool used towards long-term solutions 
for cleaning up abandoned mines at less cost to government.
    With support from the EPA and Congress, I'm certain that we 
have the capacity to work together to develop an efficient, 
equitable and scientifically sound approach to ensure the 
legacy that we leave our children is not one of accusation and 
rancor, but one of collaborative deliberation and action. 
Inaction will only allow this contamination to continue and 
result in continued impacts to our rivers, community and all 
taxpayers.
    Please see my written testimony for more detailed 
information of the historical context about the environmental 
impact of mining in the San Juan Mountains, cleanup, and the 
timelines of notification and follow-up activities by the EPA.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Hon. Brookie follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Chairman Smith. Thank you, Mayor Brookie.
    And Dr. Williamson.

               TESTIMONY OF DR. MARK WILLIAMSON,

             GEOCHEMIST, GEOCHEMICAL SOLUTIONS LLC

    Dr. Williamson. Good morning, Chairman Smith, Members of 
the Committee. I appreciate the opportunity to be here today 
and contribute what I may.
    My name is Mark Williamson. I am a geochemist living in 
Loveland, Colorado, and I earned my Ph.D. from Virginia Tech in 
the Department of Geological Sciences. For the whole of my 
professional career and extending back into my graduate days, I 
have focused on the geochemistry of the acid rock drainage, the 
type of solution discharged from the Gold King Mine, its 
management, and the associated issues of metals in aquatic and 
terrestrial environments. Consistent with the language in my 
invitation to this hearing, I'm present to offer my education 
and experience to the Committee in this examination of the 
circumstances surrounding the discharge of acid rock drainage 
(ARD) from the Gold King Mine.
    Like many of my fellow Coloradoans, other professionals 
that work with ARD, and citizens concerned with the quality of 
our water resources, I was disturbed by the discharge from the 
Gold King Mine. ARD has a significant impact on water resources 
negatively affecting thousands of miles of streams and rivers 
throughout the United States.
    To control, but not necessarily eliminate the discharge of 
ARD from disused mines, the engineered plugging of mine 
openings to regulate the flow of ARD has been a simple, 
relatively effective management technique, but results in a 
refilling of the mine workings with water. At the Gold King 
Mine, work plans from 2014 and 2015 that I've been able to see 
indicate that such refilling was anticipated and that a 
potential blowout condition was deemed to exist at the 
collapsed Gold King Mine portal, prompting the need for action.
    Despite the anticipated filling of the workings and the 
potential blowout condition, field operations at the Gold King 
Mine used excavation equipment to dig open the collapsed mine 
portal. It is not clear to me that any investigations were 
conducted to assess how much water was present behind the 
collapse, or if there was any water at all.
    Given the uncertainty, the potential negative consequences, 
and with the benefit of hindsight, a detailed assessment of the 
situation would have been advisable but I am not aware of such 
documentation. Any number of lines of investigation are 
familiar to me that may have be pursued, including drilling a 
borehole behind the collapse feature, inspecting the mine area 
for developing seeps and springs, searching for exploration 
boreholes that extend into the workings, reviewing and 
inspecting older mine maps for potential other openings, or, as 
seems documented in work plans of 2015, inserting a pipe 
through the collapse feature to pierce it and check for the 
presence of water. Of these, a borehole behind the collapse and 
a pipe piercing the collapse can be used to pump out water, to 
the extent it is present, in a controlled manner to remove the 
water and its associated risk. It is not clear to me from 
materials made public that any such investigation or 
evaluations were conducted. Without further documentation, it 
cannot be determined if site operations arbitrarily abandoned a 
conceptual site model or if actual conditions behind the dam 
led to a paradigm shift. Given the ultimate outcome at the site 
and the lack of specific documentation, it appears that 
appropriate risk-reducing evaluations may not have been 
conducted.
    The resulting discharge of ARD from the Gold King Mine was 
comprised of an acidic metal-bearing solution as well as a 
metal-containing sludge. Both of these can and do result in 
negative effects on the quality of receiving streams. The 
solution phase can result in immediate acute impacts and the 
sludge acute impacts as well as more long term chronic 
conditions. Acute effects appear to have been temporal, largely 
avoided with the passing of the plume. The chronic, long-term 
effects are undocumented and unclear at this time.
    In closing, I'll thank you again for the opportunity to be 
here and contribute, and point out that managing ARD is very 
difficult, especially in a historic mining district. Given the 
challenging conditions, and the potential harm, care is 
warranted in pursuing remedial activities. Owing to the lack of 
available documentation, is not clear just how just much care 
was exercised in the Gold King situation. However, I am 
optimistic that we will learn the details of this unfortunate 
event so that such things can be successfully avoided in the 
future.
    Thank you.
    [The prepared statement of Dr. Williamson follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Chairman Smith. Thank you, Dr. Williamson.
    Before we go to questions, I'd like to recognize the 
gentleman from New Mexico, Steve Pearce, who obviously has an 
interest in the subject at hand, and we welcome him to the 
Committee today.
    Mr. Stanislaus, let me direct my first question to you. On 
August 26th, EPA Deputy Administrator Stan Meiburg told reports 
on a conference call that there was ``no evidence to suggest 
that precautionary measures were needed.'' However, I'd like to 
show you two documents on the screen. The first is a 2014 EPA 
Task Order, and the second is your own contractor's work plan 
from 2015. Both documents describe the potentially dangerous 
conditions at the mine, and specifically both state, and 
because the print is small, I'll read it on this PowerPoint: 
``Conditions may exist that could result in a blowout of the 
blockages and cause large volumes of contaminated mine waters 
and sediment from inside the mine, which contain concentrated 
heavy metals.''
    I'd like to go to a second PowerPoint slide, and this is 
from the internal EPA email that appears to address the 
potential dangers at the mine. ``The mine should be assumed to 
be full of water that is backed up to the top of the plug or 
higher.''
    So my question, Mr. Stanislaus, is this: Why did the EPA 
ignore these obvious warnings?
    Hon. Stanislaus. Well, from multiple of years, both the 
State of Colorado, local stakeholders had identified the fact 
of water buildup and the cave-in situations.
    Chairman Smith. So that even underlies my question even 
more. So why were the warnings ignored? You had--you were on 
notice for years.
    Hon. Stanislaus. Yeah, so----
    Chairman Smith. And we saw the Ranking Member put slides 
up. We've had other spills. Why were the warnings ignored?
    Hon. Stanislaus. Well, the warnings were not ignored. So it 
began with the identification of this particular segment. The 
reason why EPA was asked to be there was actually to address 
the water buildup and the cave-in situations. We specifically--
and I'd like to read it for you----
    Chairman Smith. But my question is, okay, if they weren't 
ignored, why did the incident occur?
    Hon. Stanislaus. Sure.
    Chairman Smith. Why didn't you take the precautionary steps 
that would have prevented the spill?
    Hon. Stanislaus. Sure. So the work plan envisioned very 
specifically to carefully remove the rock buildup from the 
cave-ins and reduce that water. The work that was being done at 
Gold King Mine was an assessment to identify what the 
particular circumstance existed at the Gold King Mine. So at 
this point----
    Chairman Smith. And you didn't think there was any danger 
at this mine?
    Hon. Stanislaus. Well, clearly both EPA and the State of 
Colorado identified the risk of a blowout. This has built up 
because of a result of cave-ins over the years and water 
buildup. So that is the reason why we were up at that mine. So 
what we know at this moment is the internal review concluded 
that this was identified up front, the work plan incorporated 
these careful measures. The experts of EPA and the State of 
Colorado looked at the site conditions, looked at sieves, 
looked at flows, and concluded that there was a low-pressure 
situation.
    Chairman Smith. Okay. Then what went wrong? If you knew 
there was a danger and you made the conscious decision to 
proceed, something went terribly wrong. Why did you proceed if 
you knew the dangers were so great or did you proceed in some 
form of negligent fashion because clearly you didn't expect and 
didn't want this spill to occur?
    Hon. Stanislaus. Sure. Again, none of us wanted the spill 
to occur. You know, the reason why we were there, to avoid this 
blowout. The reason why we were there was to avoid that 
blowout. So what we were doing there was actually doing 
investigative work, and per the work plan, the plan was to 
carefully reduce the buildup from the cave mine in, then to 
insert piping to reduce the----
    Chairman Smith. I understand what you might have had 
planned. Again, something went terribly wrong. It seems to me 
you did not heed the dangers or you certainly did not act to 
prevent the spill from occurring in an adequate fashion or the 
spill would not have occurred.
    Do you feel that anyone was negligent at all?
    Hon. Stanislaus. Again, at this moment, what we have is an 
internal review. We're awaiting the independent review being 
done by the Department of Interior as well as Office of 
Inspector General. We will await the completion of all of those 
to make that assessment.
    Chairman Smith. And to date, has anybody been held 
accountable, or not?
    Hon. Stanislaus. Well, we've held ourselves accountable and 
most immediately we worked with the state and local communities 
to address the response. We've been working in a unified way, 
collecting data, communicating that data to local stakeholders 
so they can make decision.
    Chairman Smith. That's all well and good, but still a 
tragic spill occurred. It looks to many of us that no one's 
been held accountable. There has to be negligence or the spill 
wouldn't have occurred. And yet the EPA doesn't seem to 
acknowledge any negligence, it doesn't seem to take any 
responsibility, and that's simply a disappointment, I have to 
tell you.
    I have time for one more question. Let me directly it very 
quickly to Mr. Greaney and Dr. Williamson. Do you think that 
this toxic spill was inevitable? If you can answer yes or no, 
that would be good. Do you think the toxic spill was 
inevitable?
    Mr. Greaney. I guess I'm not really qualified from an 
assessment standpoint on that mine to really answer that 
question. Certainly there was buildup that would have gone 
somewhere at some point, but I do not know if it would've 
resulted in a blowout.
    Chairman Smith. Do you think--okay. And Dr. Williamson?
    Dr. Williamson. I would ultimately like to rely on more 
detailed evaluations. However, I wouldn't say that it's 
necessarily inevitable. It was in fact holding back quite a lot 
of water at this point, and there are other locations within 
the district that I'm aware of that act as opportunities for 
releasing pressure. So it remains to be seen. It would have to 
be forecast with a little more certainty, I think.
    Chairman Smith. Okay. Thank you all.
    And the gentlewoman from Texas, Ms. Johnson, is recognized 
for her questions.
    Ms. Johnson of Texas. Thank you, Mr. Chairman.
    Mr. Stanislaus, how did EPA come to be involved with the 
efforts to address mine wastewater leakage at this Gold King 
Mine?
    Hon. Stanislaus. It actually began when the American Tunnel 
got plugged. When it got plugged, and this is a primarily issue 
by the State of Colorado with the Sunnyside Corporation, that 
plug-in resulted in the water increasing up to the Red and 
Bonita Mine and then the Gold King Mine. Subsequently, water 
seeps went into Cement Creek and Animas River. The stakeholders 
then asked EPA along with the State of Colorado to get involved 
to address that risk of water flow into the Animas River as 
well as the cave-ins at the Gold King Mine.
    Ms. Johnson of Texas. Now, I've heard that the installation 
of the last bulkhead at the American Tunnel in 2002 may have 
been a superseding cause to the blowout on August 5th. Can you 
please describe the history of the closure and the plugging of 
the American Tunnel and what its relationship might be to 
August 5th blowout at the Gold King Mine?
    Hon. Stanislaus. Yeah. EPA was not directly involved in 
that decision. What we do know from the internal review that 
was conducted was that a permit was issued by the State of 
Colorado to Sunnyside Mine that plugged the mine, you know, and 
as Dr. Williamson noted, that once you plug a mine, you will 
have water backup, and what we do know is that water backed up 
to the Red and Bonita Mine, which is a mine right on top of 
that, and then migrated out to the Gold King Mine, which then 
subsequently led to the water releases to Cement Creek and to 
the Animas River.
    Ms. Johnson of Texas. Thank you.
    Mayor Brookie, thank you for your testimony and your 
characterization of the technicolor spotlight that has been 
placed on the problems your constituents and others for 
decades, if not longer. While I understand that the mining 
played an important role in economic development of the western 
United States, the impacts of abandoned mines are difficult to 
ignore. You note in your written testimony that mine blowouts 
like the one on August 5th are not uncommon putting this most 
recent release in context. Could you describe some of the past 
challenges your region has had to deal with as a result of 
mining activities?
    Hon. Brookie. Certainly. We have--since the 1880s 
downstream users have grappled with related pollution in the 
Animas River as a result of acid mine drainage because in 1880 
the mines just dumped this directly into the river, and by the 
1890s the Animas River that ran through Durango ran gray and 
turbid--it was a quote in the Durango Herald from 1890--nearly 
every day thanks to mill tailings being dumped into the river 
near Silverton. This is approximately 55 miles away. Back in 
1890, our town was covered with gray, turbid Animas River. It 
was not the clear river that we have today.
    In 1902, Durango shifted its primary water source, potable 
water source--this is from the Animas River--to the Florida 
River, a tributary adjacent. It comes from another watershed 
that has less mining activity. So as far ago as 1902, we 
changed our water source, our primary watersource. We still use 
in the summertime the Animas River for the treatment facility 
and it meets water quality standards after being treated, but 
it's primarily--only used in the summertime for irrigation of a 
number of the fields and lawns and so forth. Our water 
increases by fourfold in the summertime.
    In the 1930s, the farmers along the beautiful Animas River 
Valley north of Durango threatened to sue the mining companies 
to curtail their tailings, took legal action the mine because 
the tailings were clogging their ditches similar to what the 
Navajo Nation is experiencing today. The mine blowouts like 
the--in 1975, a huge tailing pond busted, sending 50,000 tons 
of tailings into the Animas River, turning it the cover of 
aluminum paint. This was just prior to my arrival in Durango, 
and people are still talking about this release, and if you can 
imagine, you pick a color. This was gray. It didn't show up on 
TV as bright as orange technicolor orange but we had the same 
thing happen in 1975.
    In 1978, there was a huge burst of tens of millions of 
gallons of water and sludge came down our river. At this time 
it was black all the way to Black River all the way to 
Farmington. So pick your color. These are 24 different types of 
minerals that have impacted our river, our watershed, flowing 
all the way through Durango into New Mexico, into Arizona and 
into ultimately the Colorado River.
    The Gold King Mine was draining anywhere from 200 to 500 
gallons per minute prior to the blowout, and so there was--if 
you can envision this mountain as--you have a giant geologic 
Whack-a-Mole. You plug one mine, as has been discussed here 
today, and you build up the pressure of water. These are 
tunnels and vertical columns. They fill up with water 
naturally, and when these people are exploring the opportunity 
to release that and contain it, there was an accident. And so 
that is estimated 60 feet of water that created that three-
million-dollar--three-million-gallon release that impacted us. 
It happened to be orange that day because of the orange oxide. 
That's probably the least health-critical element that was 
released. The color did, however, bring national attention to 
this issue.
    We've had black, we've had gray, we've had all kinds of 
colors. Last year in the spring, there was a release of more 
than--a greater release than was experienced in the Gold King 
but it happened during the spring runoff in 2014, came down our 
very same river. We didn't even know it. Navajos didn't know 
it. Nobody knew it because it happened to be in the normal, 
turbid, brown color spring runoff, and it came through our 
town. That's what happens and that's what we have to deal with.
    Chairman Smith. Mayor, thank you for that response. We let 
you go a little bit over time, but that was interesting.
    Let me recognize the gentleman from Georgia, Mr. 
Loudermilk, for his questions.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    As I was listening to the statements and answers to the 
questions here today, I kind of heard a common theme as I've 
read the reports of this event is, it's not important for us to 
find out who's to blame right now but other than to clean up 
the spill. It's understandable. But it seems to be when the 
government is at fault, they're not very anxious to figure out 
who's at fault, but if it's somebody else, we're more than 
willing to point the blame, even while the disaster and the 
cleanup is going on.
    Let me bring attention to 2010, the Deepwater Horizon spill 
in the Gulf of Mexico, disastrous. It was disastrous to the 
people of that region. It cost many people their jobs. Many 
businesses went under because of this. Even while we were 
attempting to clean it up, the government didn't hesitate to go 
ahead and point fingers as to who was to blame. In fact, the 
former EPA Administrator, Lisa Jackson, and the Secretary of 
Homeland Security, then Janet Napolitano, send a scathing 
letter to BP saying they must be more transparent with what 
happened.
    Dr. Benn, has in your opinion the EPA been transparent with 
what's going on so far?
    Hon. Benn. Thank you for that question.
    Well, as far as the farmers and the ranchers are concerned, 
they hadn't really been as transparent.
    Mr. Loudermilk. Okay. Thank you.
    Mr. Stanislaus, I appreciate you saying in summarizing, 
eventually we're going to get to what the issue is. But why are 
we only being transparent when this Committee goes forward and 
demand answers? Why is not the EPA coming more aggressively 
right now and coming out with what was the cause and what are 
we going to do to fix the situation? When are we going to see 
the transparency that this government demands of private 
industry or individuals when they're clearly at fault?
    Hon. Stanislaus. Well, thank you, Congressman. We believe 
we've been as transparent as we possibly could. Our initial 
focus was absolutely to collect the data and provide data in 
the hands of local communities, of the states and tribes to 
make decisions. Subsequent to that, we posted about 2,500 pages 
of documents, documents regarding the work plan, documents 
regarding the request proposal, documents regarding community 
meetings held with stakeholders, and we will continue to do so.
    You know, with respect to holding ourselves accountable, 
you know, we first began with immediately and as aggressively 
as is possible to conduct a response in a unified way, making 
sure that the state and local government and tribes are part of 
the unified command. Clearly, we are only part of the way 
through. We've done internal review, because I was very 
interested what lessons learned relate to other sites around 
the country and what lessons learned in terms of what 
transpired there. But that's only part of the puzzle.
    Mr. Loudermilk. Have you been more transparent than BP was?
    Hon. Stanislaus. Have I been more transparent? I think 
we've been very transparent. I've not done the comparison. But 
having been involved in the BP spill as well, I believe we in 
fact pushed transparency there, and I believe we executed the 
same level of transparency here.
    Mr. Loudermilk. Ultimately, who's going to be held 
responsible for this?
    Hon. Stanislaus. Well, that is exactly where we are in the 
process of examining. You know, we've done an internal review. 
We have two other independent reviews, and we will see the 
culmination of that regarding what were the preparation and 
facts going into that event, how was that executed, and we're 
going to look at all of that.
    Mr. Loudermilk. So do you agree that you should be held to 
the same standards that you hold everyone else to?
    Hon. Stanislaus. Absolutely.
    Mr. Loudermilk. Do you agree to that?
    Hon. Stanislaus. Absolutely.
    Mr. Loudermilk. After the Deepwater Horizon spill, 
President Obama appeared on the Today show in 2010 and stated 
had Mr. Hayward, the president and CEO of BP, had been working 
for him, he would have already been fired because of his role 
in the spill. Do you think we should hold the same standards?
    Hon. Stanislaus. Well----
    Mr. Loudermilk. Should Gina McCarthy already--should we 
have called for her to be fired if definitely the EPA is 
responsible for this spill?
    Hon. Stanislaus. Well, I think we all want a fact-driven 
process. So we've done one step of the investigation. We await 
the independent review, and I think all the Members, all the 
public have also called for independent reviews. We're going to 
see the culmination of that. You know, roughly--I mean, the 
Department of Interior is doing a study in 60 days. I don't 
recall exactly when the Officer of Inspector General will be 
completing. Because we want a fact-driven process because I'm 
responsible for the cleanup of contaminated sites around the 
country at the request of states and local government. I more 
than anyone want to know--want to make sure that we're doing 
the right thing. So we're going to await that information.
    Mr. Loudermilk. I appreciate that, and we're running out of 
time. All I'm asking for is that hypocrisy of this government 
hold the stop and that the government hold itself to the same 
standards that it holds the American people to, and that's what 
I think we must demand as we go forward.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Loudermilk.
    By the way, I don't remember President Obama waiting for an 
independent review, given the comments you just said.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    There's absolutely no question that what happened in 
Colorado is tragic, and I want to thank the witnesses for being 
here to help us learn more about why it happened, if and how it 
could have been prevented, critique the response of the EPA and 
how that was handled, and also talk about the lessons learned.
    We also have to keep in mind that there are inherent 
environmental damages or dangers from metal mining operations 
and there are thousands of inactive mines around the country 
that are consistently leaking toxic wastewater full of heavy 
metals into streams, creeks and rivers. So we need the 
Environmental Protection Agency to review mining development to 
make sure that mining operations do not endanger crucial 
watersheds, and I want to also talk about the need to be 
proactive here and mention Pebble Mine in Alaska. EPA watershed 
assessment found that Pebble Mine would likely have an 
irreversible negative impact on the local watershed and salmon 
fisheries. Congressman McDermott and I led a group of our 
Oregon and Washington colleagues asking the EPA to protect 
Bristol Bay. Fisheries in that region provide thousands of jobs 
and millions of dollars annually to the economies not only of 
Alaska but also Oregon, Washington and the entire Northwest and 
the potential damage from a massive mine operation is a serious 
threat, and I hope that the lessons learned in Colorado are 
considered in that ongoing process.
    But back to Colorado. Mr. Stanislaus, you said in your 
testimony that based on 2009 to 2014 flow data, the average 
annual water discharge from Gold King Mine and the three nearby 
mines reached approximately 330 million gallons per year, and 
the EPA and the State of Colorado and partners have been taking 
action to address that issue. So can you please talk about the 
ongoing--those ongoing discharges and the work that was being 
done there, and in your response, please address whether 
additional resources would have made a difference, and also 
would a Superfund designation or listing of the Gold King Mine 
have affected the resources and the approach available for 
cleanup and remediation? And I do want to save time for one 
more question.
    Hon. Stanislaus. Sure. So most recently, the Animas 
Stakeholders Group and the State of Colorado asked for EPA's 
assistance both from funding and technical expertise. That's 
what brought us to the mine, the Red and Bonita, and the Gold 
King Mine. But there was a preexisting effort by the Animas 
Stakeholders Group, who identified, Congresswoman, the multiple 
sources into the river that degrades the water quality. In 
fact, about 10 miles above the Animas River is degraded and 
fish health is severely compromised.
    So just last week at the request of local communities, I 
actually traveled to Silverton to have a community meeting 
about whether a listing of Superfund would address this issue. 
We're in the middle of that conversation. And I presented that. 
To be eligible for Superfund resources, they have to be listed 
on the National Priorities List, and we're going to engage the 
local community regarding that.
    Ms. Bonamici. And Mayor Brookie, I want to ask you to 
follow up on that. I represent a district in Oregon and really 
understand the importance of preserving natural resources, and 
that's especially important to our tourism industry, which I 
know you share those concerns as well. So can you talk about 
how this recent release, which of course we all watched on 
television, some of you up close firsthand, how has it been 
treated in the media? Can you talk about what the coverage has 
done to your local economy and also address the Superfund 
designation because I know that's a discussion that's been 
ongoing in your community.
    Hon. Brookie. Surely. Well, I might add that Ms. Gina 
McCarthy was in Durango, took full responsibility for EPA's 
role in this event. She was--there was a plastic table and a 
metal folding chair closer than the Chairman and myself sitting 
together, and she took full responsibility. I did get a phone 
call the Thursday after the event from Sean McGrath, who's the 
Division EPA Director, asking from the city's perspective if we 
need any assistance at all from this event, and that was--and 
by the way, we were notified within an hour and a half at City 
Hall of the release. The event happened at about 10:58, and we 
were notified at 1:39 in the afternoon, and that allowed us to 
shut down our pump stations out of the Animas River, protect 
our potable water supply.
    Ms. Bonamici. And can I just ask you who notified you?
    Hon. Brookie. Well, the Colorado Department of Health--
Public Health and Environment, CDPHE, which is the appropriate 
protocol for EPA to notify the state health department. They 
notify downstream parties, which we were notified within an 
hour and a half.
    Ms. Bonamici. And then could you briefly address the effect 
on tourism that you've seen?
    Hon. Brookie. Sure. Well, as you might imagine, I found 
myself with a barrage of cameras, everybody from al Jazeera to 
Fox News channel holding press conferences, et cetera, and 
infinitely showing the orangish plume coming through our town. 
It's still on the screen. It's good to see it again. I can tell 
you that orange plume no longer exists in Durango. It lasted 
for about a day and a half before it moved on to our friends 
downstream, Navajo Nation.
    But we are--we immediately closed the river----
    Chairman Smith. Mayor Brookie, we've again run out of time.
    Ms. Bonamici. My time is expired.
    Chairman Smith. And I appreciate your response.
    Hon. Brookie. Sure.
    Chairman Smith. We'll go now to the gentleman from 
Louisiana, Mr. Abraham.
    Mr. Abraham. Thank you, Mr. Chairman.
    Mr. Chairman, first let me express my I guess awe at the 
Secretary of the EPA actually not being here. We all know in 
this room that if it had been an individual business, that 
business would have been vilified way before this. So I find it 
somewhat unconscionable that Ms. McCarthy chose not to be 
present at this hearing.
    Saying that, Mr. Stanislaus, you said in your testimony 
that your experts at the EPA underestimate the water pressure. 
Now, I'm not a hydrologist but I can certainly estimate water 
pressure pretty easily with certain equipment. I've done it on 
my farm many, many times. I guess my question is, if they 
underestimated this, have they underestimated water pressure at 
other mines? I'm talking to you, Mr. Stanislaus.
    Hon. Stanislaus. So just to be clear, I mean, I am here 
because my responsibility is emergency response.
    Mr. Abraham. Yes, sir, I understand you're the cleanup man. 
You're fourth in the lineup as far as batters are concerned, 
and really you shouldn't even be here because it shouldn't have 
happened in the first place. You wouldn't even have a role in 
this. So my question to you is, your experts at EPA you have 
said in your testimony underestimated the water pressure.
    Hon. Stanislaus. Well, no----
    Mr. Abraham. Have they done this in other places?
    Hon. Stanislaus. So the pressure was not estimated. You 
know, the review report concluded that when they got on the 
site, they identified the potential for blowout conditions 
and----
    Mr. Abraham. And let me interrupt. Excuse me, sir, with due 
respect.
    Mr. Greaney, with you and Mr. Stanislaus, sir, if you all 
knew that there was an issue here of potential blowout, was 
there a mitigation plan in place for this potential disaster?
    Mr. Greaney. The blowout potential as was identified 
following the issuance of the Task Order and some initial site 
work again represented there was six foot of water behind that 
bulkhead--I'm sorry, not a bulkhead, the collapsed tunnel. The 
intent then of the work plan was essentially to come in using 
that top four foot of open space between the water level and 
the----
    Mr. Abraham. But did you have a mitigation plan in place 
for this potential blowout because you knew it was a potential 
thing to happen? I mean, we all have mitigation plans in life 
for certain instances that can happen, and this is what the 
definition of a mitigation plan actually is. Did you have one 
in your company?
    Mr. Greaney. We had a management plan to again use the--a 
probe, much as Dr. Williamson had suggested, to insert into the 
well or into the mine and start pumping water.
    Mr. Abraham. So that was your mitigation plan? If it 
started to blow, you all were just going to pump water out?
    Mr. Greaney. I guess I'm not sure what--you're using 
mitigation, I'm using management plan. You're looking for a 
contingency plan?
    Mr. Abraham. Yes. Let's agree on that word. If it happened, 
what was your immediate first step, and did that happen?
    Mr. Greaney. Again, the blowout occurred during the 
initial--we had not started our site work. We were not prepared 
to enter the----
    Mr. Abraham. That answers the question. You weren't there. 
Okay.
    And Mayor Brookie, you said that the EPA, the good news 
that day was that the EPA was actually there when it happened, 
and you know, I would use the analogy in medicine that a 
surgeon working on a lung slices the heart open, and we're glad 
that surgeon just happened to be there because he sliced the 
heart open. So, you know, again, it just is beyond pale, you 
know, that we're at this point where we have to have this 
hearing because nobody--like the Chairman said, there's totally 
a lack of transparency, and I think a lack of forthrightfulness 
here.
    Mr. Stanislaus, has EPA estimated the actual money cost to 
the environmental impact on this spill?
    Hon. Stanislaus. Well, at this moment we've expended about 
$8 million of direct response costs----
    Mr. Abraham. How about referring to Mr. Benn as far as the 
Navajos, what he's asking for? Have you factored that cost into 
your figures?
    Hon. Stanislaus. Well, we have begun to pay response costs 
by those who have asked. Local governments are going to 
continue to provide those response costs. Separately, we've 
established a claims process under the Federal Tort Claims Act. 
We're going to be working through that process and completing 
that process within six months.
    Mr. Abraham. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Abraham.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for his questions.
    Mr. Perlmutter. I'd like to welcome my fellow Coloradoans 
to Washington, DC. Gentlemen, thank you for your testimony. All 
of you, thank you for your testimony today.
    Part of this I feel like, you know, we're in the early 
stages of litigation, and the Chairman I think maybe a 
frustrated litigator wanting to figure out who was negligent, 
who wasn't negligent, who's responsible for this, what 
happened. I appreciate the fact that the EPA got to the 
Department of Health in Colorado quickly, who got to Durango 
quickly to share this. There apparently was some breakdown in 
communication getting to the Navajo Nation.
    So in all of this, a court is going to figure out exactly 
what happened, why it happened, when it happened, should it 
have happened, Dr. Williamson, so--but I'd like to ask some 
other questions because I think, Dr. Benn, you suggested some 
things that the EPA should consider in the short term and in 
the long term. Those--if I recall correctly, one was, you know, 
help you with some monitoring devices to keep an eye on things, 
help the farmers and the ranchers who may have been impacted. 
Am I right about that?
    Hon. Benn. Yes, sir.
    Mr. Perlmutter. Are those conversations ongoing with the 
EPA at this point, or are you guys in litigation, or where are 
you?
    Hon. Benn. Right now we're still in discussion.
    Mr. Perlmutter. You're in discussions. Okay. So there is 
some conversation going on between the Navajo Nation and the 
United States of America through its EPA?
    Hon. Benn. There's only discussion among us as a Nation 
right now.
    Mr. Perlmutter. Oh, within your--within your own Nation. 
You're not talking to the EPA?
    Hon. Benn. Yes, sir.
    Mr. Perlmutter. Okay. I asked that badly. So you're--is the 
Nation speaking to the EPA about potential ways that the EPA 
and the United States could help the Nation?
    Hon. Benn. As I explained to the U.S. EPA at one point that 
this whole situation can't be tackled all at once, that there's 
three parts. There's the spill, the reaction to the spill, and 
the coordination, the collaboration with EPA. We're actually in 
that stage right now. I think that they are working with us but 
to a certain degree.
    Mr. Perlmutter. If I could, I'd like to have a couple of--
the first slide showing exactly where this Gold King Mine is. 
Can we put that up on the board? No, the other one. Sorry. That 
one. Yes. Thank you.
    So Mayor Brookie, Dr. Williamson, can you describe the area 
where this Gold King Mine is and approximately how many mines 
are in the Silverton complex, which I think, you know, range at 
least in the hundreds, if not into the thousands? Dr. 
Williamson?
    Dr. Williamson. In response to your first point, the 
terrain is mountainous for sure, southwestern Colorado. It's a 
mining district. It's fairly dispersed and widespread and there 
are multiple historic operations in the area. An exact number, 
I couldn't really tell you.
    Mr. Perlmutter. And approximately when did the mining start 
in this area?
    Dr. Williamson. Perhaps 130 years ago, give or take.
    Mr. Perlmutter. And Mayor Brookie, do you know how many 
mines are up in that district, up in the complex above Durango?
    Hon. Brookie. In my written testimony, I have a little 
diagram of the mines. There's hundreds of mines in and around 
that particular basin as well as in that--that's just Cement 
Creek. Then there is also, as has been mentioned before, 
Mineral Creek on the other side of the mountain as the Animas 
River primary tributary. They all feed into the Animas River as 
they come through Durango. But in that basin, there's 
virtually--in all, there's over 5,000 mine shafts at its 
tunnels and prospects in the upper Animas drainage.
    Mr. Perlmutter. And in Colorado, we have many more than 
just in this area. I actually represented an engineering 
company years ago in another troubled mine with a big release 
that the EPA got in and we, you know, built some new treatment 
facilities and the like. So can we go to that other picture 
that was up there for a moment of exactly where this Gold King 
Mine is and the terrain right there? So--the other one. There 
we go.
    So in preparing for this, this had been--there had been a 
release--there had been a slow leakage, if you will, of a 
couple hundred gallons per minute as opposed to three million 
gallons in a very short period, but over time there's a lot of 
liquid release--there was a lot of liquid released from this 
mine, and Mayor Brookie, I think you said like 300 million 
gallons per year or something like that. So----
    Hon. Brookie. That's correct.
    Mr. Perlmutter. --just for illustrative purposes, three 
million gallons which was released in that August 5th and 
August 6th time frame versus 300 million gallons per year. So 
we have a lot of work to be done with a lot of mines in the 
State of Colorado, and my question is, if the EPA or some 
federal agency doesn't help with this, who does? Mr. 
Stanislaus?
    Hon. Stanislaus. So we are called to address Superfund 
mining sites around the country. That's only a small subset of 
mines. So we get involved and do the work that we've been doing 
in this and all the mines around the country. Clearly, there 
are--just in Colorado, I believe there are 23,000 mines just in 
Colorado and hundreds of thousands of mines around the country, 
and that responsibility is split between other federal agencies 
and states.
    Mr. Perlmutter. Mr. Greaney----
    Chairman Smith. Thank you, Mr. Perlmutter. Your time has 
expired.
    The gentleman from Ohio, Mr. Johnson, is recognized for his 
questions.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman.
    Could I get the first slide, please? Mr. Stanislaus, this 
is the public Web site where EPA has been releasing information 
about the Gold King Mine spill including videos captured by EPA 
contractors that show the blowout as it happens. According to 
the Web site, and I want you to look over on the far right-hand 
side there, EPA removed profanity contained in the audio of the 
videos and obscured visible license plates for privacy 
purposes, and then it ends with this: EPA did not edit the 
videos in any other way. So first question for you, Mr. 
Stanislaus. Is the statement I just read from EPA's Web site 
accurate?
    Hon. Stanislaus. It is accurate.
    Mr. Johnson of Ohio. Okay. Great. Do you have any reason to 
believe that it would not be accurate?
    Hon. Stanislaus. I do not.
    Mr. Johnson of Ohio. Okay. Here is video footage of the 
early stages of the Gold King Mine blowout that was obtained by 
the Science Committee. Let's have video number one.
    [Video playback]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Johnson of Ohio. Well, the next video is the exact same 
footage that EPA posted on its Web site but the last few 
seconds of the audio has been removed to prevent the viewers 
from hearing the team on the ground saying what do we do now. 
Let's have the second video.
    [Video playback]
    Mr. Johnson of Ohio. So you said that you had no reason to 
believe that the EPA's Web site had been altered. I've just 
given you reason because the evidence is there, the before 
video and the one that you posted on the Web site. Why did the 
EPA edit out the audio of the team on the ground saying ``what 
do we do now''? Do you got any idea?
    Hon. Stanislaus. I do not, you know, and EPA had provided 
its----
    Mr. Johnson of Ohio. That's good enough. After seeing both 
videos, do you think EPA's Web site is misleading to the 
American public?
    Hon. Stanislaus. I can't tell at this moment.
    Mr. Johnson of Ohio. What do you mean, you can't tell?
    Hon. Stanislaus. I would----
    Mr. Johnson of Ohio. You just saw two videos, one that had 
it and one that didn't, one that was clear and open, one that 
was posted by the EPA. How can you not tell?
    Hon. Stanislaus. I would need to compare all the----
    Mr. Johnson of Ohio. You just got a comparison, Mr. 
Stanislaus.
    Hon. Stanislaus. --circumstances behind the two videos and 
what the various staff and EPA----
    Mr. Johnson of Ohio. The EPA apparently had an on-scene 
coordinator on the ground during the spill. Is that correct? Do 
you have any idea? Is the EPA on-scene coordinator the one in 
the video who says ``what do we do now''?
    Hon. Stanislaus. I don't know that information at this 
moment.
    Mr. Johnson of Ohio. Okay. EPA did not release videos of 
the incident for over a month after the spill, a month. How 
long did EPA know about video footage of the incident before it 
disclosed the videos to Congress and the American people? Do 
you have any idea?
    Hon. Stanislaus. Yeah. My understanding was, the video was 
provided as soon as possible, and I don't----
    Mr. Johnson of Ohio. A month?
    Hon. Stanislaus. Well, I don't know exactly when EPA 
obtained access to the video and the time period. We can get 
back to you regarding that time frame.
    Mr. Johnson of Ohio. All right. Mr. Stanislaus, this is 
another video of the spill after the toxic water was moving 
more rapidly. Let's go to video number three.
    [Video playback]
    Mr. Johnson of Ohio. So if the EPA had known the answer to 
the question in the previous video, what do we do now, is it 
possible the EPA's response would have been better and 
prevented the water from escaping the mine so quickly? Could 
they have stopped this rush that we just saw?
    Hon. Stanislaus. Well, all I know at this moment is what is 
contained in the internal review, and what the internal review 
concluded that the risk of a blowout was identified as possible 
by both the State of Colorado and EPA. That was discussed with 
the Animas stakeholders----
    Mr. Johnson of Ohio. Okay. Good. I appreciate that. Hold on 
to that statement right there.
    So given that the risk was identified, EPA had every reason 
to believe that a blowout was possible. Was the EPA prepared to 
properly respond to an environmental event of this magnitude?
    Hon. Stanislaus. Well, again----
    Mr. Johnson of Ohio. That's an easy answer because we got 
three million gallons of toxic water that ran into the river. 
Were they adequately prepared?
    Hon. Stanislaus. So because of that risk----
    Mr. Johnson of Ohio. Yes or no.
    Hon. Stanislaus. I need to answer that question. Because of 
that risk, they put in place specific plans----
    Mr. Johnson of Ohio. Okay, but they didn't execute their 
plans.
    Hon. Stanislaus. If I can--so in the work planning, so the 
whole point was to carefully remove the rock buildup and then 
remove the water as part of the investigation phase. The 
investigation team also concluded that the emergency response 
component of the plan did not include the worst-case scenario 
of a blowout and that's something that I committed to going 
forward to make sure that happens.
    Mr. Johnson of Ohio. Well, according to news reports, the 
EPA failed to notify local officials including the Navajo 
Nation for 24 hours after the spill. They did not have a plan 
to deal with an environmental event of this magnitude, and 
clearly what do we do now, that question, they didn't have an 
answer to.
    Mr. Chairman, I got lots more that I could talk about but 
my time is expired.
    Chairman Smith. Thank you, Mr. Johnson.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Thank you, Mr. Chairman.
    And with respect and in the spirit of fairness, I do want 
to say that I object to the pejorative and accusatory title of 
the hearing: ``Holding the EPA Accountable for Polluting 
Western Waters.'' I think it's been very clear from the 
testimony today that the EPA was very far from being the first 
mover in the release of the heavy-metal-laden mine wastewater, 
and it's an untenable stretch to say that the EPA is solely 
responsible for this spill. Just remember, it makes no sense to 
compare Deepwater Horizon to this spill. There's tens of 
thousands, perhaps millions of difference in order of size and 
impact.
    The EPA was only at the site because it was concerned about 
the decades-long problem of contaminated wastewater release, 
and blaming the EPA for the larger problem of the wastewater 
release is like blaming firefighters for the forest fire.
    Three million gallons were released on August 5th. As we've 
heard today, three million gallons are released every week year 
in and year out. I'm very concerned about what Dr. Benn has 
talked about, this impact on the Navajo Nation. I like to think 
about the larger impact to the Navajo Nation about all those 
gray releases and black releases and others that Mayor Brookie 
talked about.
    And on the call for accountability, we've already heard 
that the EPA has released 2,500 pages up on the internet, and 
yet to hear any resistance from Mr. Stanislaus about not being 
willing to come forward with all the transparency that is 
requested, and I have yet to hear a description of what the EPA 
is somehow withholding. You know, we want to hold people 
responsible but it seems to me that they're doing their best to 
come forward.
    Two years ago, Peter Butler, the Coordinator of the Animas 
River Stakeholders Group, appeared in a video that highlighted 
the history of the mines in that region. I'd like to ask that 
that video be shown now.
    [Video playback.]
    Mr. Beyer. Mr. Chairman, thank you for letting me go a few 
seconds over.
    Chairman Smith. There's no time for questions, though. 
That's the problem.
    Mr. Beyer. I'll just point out that that video was done in 
2013, two year before the EPA spill.
    Chairman Smith. EPA had plenty of notice of the dangers of 
mine spillage, and I thank the gentleman for pointing that out. 
If you have a question, we'll acknowledge you for another extra 
30 seconds. Okay. Thank you, Mr. Beyer.
    The gentlewoman from Virginia, Ms. Comstock--no, I'm sorry. 
The gentleman from Arkansas, Mr. Westerman, is recognized for 
his questions.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Greaney, I have with me a copy of the action work plan. 
On the title it's ``Environmental Restoration LLC.'' Who 
prepared this document?
    Mr. Greaney. That is traditionally prepared by our response 
manager assigned to the project.
    Mr. Westerman. Okay. So how many layers of approval did 
this document go through?
    Mr. Greaney. That document would be basically a 
collaborated effort between the on-scene coordinator from the 
U.S. EPA as well as the response manager, and those two--the 
OSC, the on-scene coordinator, would traditionally sign off on 
it as is accepted.
    Mr. Westerman. So somebody from your company signed off on 
it and somebody from the EPA signed off?
    Mr. Greaney. The response manager from our company as well 
as U.S. EPA on-scene coordinator.
    Mr. Westerman. So were professional services employed by 
engineers, geologists or hydrologists used in preparation of 
this work plan?
    Mr. Greaney. No, that would have been any data that--we 
work off of the data that is provided to us within the Task 
Order as well as any other data that's provided by the federal 
on-scene coordinator at the time of the Task Order. We are not 
an engineering form. Data is provided to us by the agency.
    Mr. Westerman. But this is clearly engineering-type work, 
so who was qualified to prepare this plan?
    Mr. Greaney. The engineering component of our Task Order 
would have been the actual structural design and installation 
of the entranceway to the mine as well as the completion of the 
tunnel work, and that would have been subcontracted to a 
specialized subcontractor who is already on contract and ready 
for us to initiate the work.
    Mr. Westerman. So a professional engineer subcontractor 
prepared----
    Mr. Greaney. No, we prepared that plan, and then there was 
a subcontractor to us who came in subsequent to that plan to do 
the engineering, design and installation of the restoration 
work after that plan was submitted.
    Mr. Westerman. So were there engineering design documents, 
drawings or specifications?
    Mr. Greaney. I don't know the answer to that. As far as the 
actual construction phase of that, I don't know.
    Mr. Westerman. So were you involved in this project?
    Mr. Greaney. No. Not directly, no.
    Mr. Westerman. So would it not be normal practice if 
somebody's out doing the work that they would have the plans 
and the specifications?
    Mr. Greaney. The work plan--again, it's more of a timing 
issue, I believe. That plan would've been turned in within, 
say, 30 days or so, 60 days, and it varies depending on what 
the federal OSC wants, and it's the preliminary approach. The 
way our contracts work is, we're giving, you know, a set of 
technical directions and then we define an operational approach 
to meet that technical direction. So that was a plan saying 
here's how we're going to get there. It mentions that we're 
going to hire a competent contractor to do that work but it 
doesn't define who because it hasn't been procured yet.
    Mr. Westerman. It doesn't say anything about hiring anybody 
for professional services. It does talk about subcontractors. 
This document was provided for transparency purposes on the EPA 
Web site, and it lists three attachments that weren't included 
in the document, which I think would be pertinent to the 
document. The first one is the cost estimate. What was the 
total cost of this project?
    Mr. Greaney. I do not have that information. I can 
certainly get it for you.
    Mr. Westerman. And then the schedule wasn't included. Do 
you know the time frame of the schedule?
    Mr. Greaney. I believe the schedule, the safety plan and 
the cost were the three attachments, and my understanding was, 
we did turn those over minus the cost was redacted for 
confidentiality reasons.
    Mr. Westerman. I think that's pertinent to the issue in 
that my question is, was there adequate cost and adequate time 
allowed to do this job properly?
    Mr. Greaney. There was certainly the cost and schedule 
provided to do the project as was originally understood, yes.
    Mr. Westerman. So why would that be redacted out of the 
document?
    Mr. Greaney. For--the cost itself was unit cost as part of 
her contract, and that was confidential business information 
that was redacted.
    Mr. Westerman. And also not included in the document is the 
site health and safety plan. Was there a site health and safety 
plan?
    Mr. Greaney. Yes, there is, and again, it's my 
understanding that it was released. I don't understand why you 
didn't have access to it.
    Mr. Westerman. Okay. So we're really not sure about how 
design engineering was done on this project and if the people 
who approved the work plan were qualified to approve that. 
Because there was obviously a lack of planning that went into 
this because of the spill that occurred.
    But Mr. Stanislaus, is there--is this common practice?
    Hon. Stanislaus. Is what common practice?
    Mr. Westerman. To prepare these plans without professional 
services?
    Hon. Stanislaus. Well, clearly, there's a whole sequence 
beginning with the request for proposal which identified the 
specific circumstances and risk. It then goes into a work plan. 
It then goes into a construction plan and execution plan. You 
know, what the review team found was, the expertise both of the 
State of Colorado, EPA and the contractors were the right 
expertise so the mining expertise was in place. They had a plan 
to execute that, and the review report goes through how that 
report--how the plan was executed.
    Mr. Westerman. Most laws--most states have laws that say 
you can't do this type of work without a professional in charge 
of the work, so does EPA exempt following state laws on 
professional services for these type projects?
    Hon. Stanislaus. Well, all the appropriate professionals 
for this job--our review team found that the expertise for 
doing a job like that was in place on this project team, both 
EPA and the State of Colorado and the contractor.
    Chairman Smith. And the gentleman's time has expired.
    The gentleman from California, Mr. Takano, is recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    I just want to get back to proportionality. Three million 
gallons in 1-1/2 days was visible as orange oxide in the water 
four miles adjacent to this mine, but 300 million gallons, I 
understand, flow of waste that wasn't visible, was not captured 
in the visual, and that's why we have this visual to make this 
comparison. So it's a matter of proportionality.
    I find it curious that this Committee is focusing on this 
and spending hours and hours and hours of time trying to figure 
out in the wrong venue. It should be a court of law figuring 
out the liability, and we're jumping to conclusions in this, 
and the title of this hearing is even jumping to a conclusion 
which, you know, was misleading, when we should be talking 
about this, and in the spirit of that, I would like to yield 
more time, my time, to the gentleman from Colorado to continue 
his questions.
    Mr. Perlmutter. Thank you, Mr. Takano. If the Committee 
would allow me to go forward?
    Chairman Smith. Absolutely. Would the gentleman--would Mr. 
Takano yield just for a minute or for a couple of seconds?
    I can't wait to use the gentleman's arguments the next time 
a private company dumps millions of gallons of toxic water into 
a pure river, and thank you for yielding, and the gentleman 
from Colorado will be recognized.
    Mr. Perlmutter. Thank you, Mr. Chair.
    So I think Congressman Beyer, Congressman Takano have 
really hit on the key point here, which is, as Dr. Williamson 
said, we've got thousands of mines in Colorado, many abandoned, 
many properly closed with all sorts of issues, and at some 
point we've got to address them. We've had, you know, lakes 
collapse into mine shafts, causing huge releases down the 
Animas River and into the San Juan and into the Navajo Nation.
    So let's just go back to basics here. So the EPA started 
working on this at least with the stakeholder group and with 
its professionals in 2014, did it not, Mr. Stanislaus?
    Hon. Stanislaus. Yeah, slightly before 2014.
    Mr. Perlmutter. So you worked with affected individuals to 
try to figure out what to do to minimize that 300 million 
gallons that was being released into a river that runs right 
through the heart of Durango and into the Navajo Nation. Is 
that right?
    Hon. Stanislaus. That's correct.
    Mr. Perlmutter. And in so doing, you contracted with the 
private sector to do the construction and remediation work that 
the professionals felt was appropriate, did you not?
    Hon. Stanislaus. That's correct, with EPA oversight.
    Mr. Perlmutter. And that one of those contractors was you, 
Mr. Greaney, and your company, true?
    Mr. Greaney. That's correct.
    Mr. Perlmutter. And listening to your testimony, you've 
done some 1,300 similar kinds of tasks for the EPA, and I think 
you testimony was 10,000 for other agencies and the private 
sector.
    Mr. Greaney. That's correct.
    Mr. Perlmutter. The kind of work you do can be dangerous. 
Isn't that true?
    Mr. Greaney. That's also correct.
    Mr. Perlmutter. And it can be complex?
    Mr. Greaney. That's correct.
    Mr. Perlmutter. Can you--how would you describe all of the 
tunnels that you're dealing with in this Silverton complex or 
the Silverton mining district when you were working on the Gold 
King Mine?
    Mr. Greaney. They're obviously very complex.
    Mr. Perlmutter. And so the Chairman started off his 
statement saying well, would a prudent person undertake this? 
Well, one prudent person, probably not, but when 300 million 
gallons a year are coming into a beautiful river where into a 
city that prides itself on being very outdoors and very health 
conscious, should the United States and should the State of 
Colorado, even though it may not be prudent, try to undertake 
to fix something like that? Mr. Greaney, what would you say?
    Mr. Greaney. We address many, many task orders on behalf of 
the U.S. EPA, and all of them have a basis for each one.
    Mr. Perlmutter. And Dr. Williamson, in your experience, 
does the EPA, does the Division of Mine Land Reclamation in 
Colorado, do other agencies try to undertake to mitigate 
against a constant release like this 300 million gallons?
    Dr. Williamson. Yes, sir, in my experience they do try to 
offset the sustained discharges.
    Mr. Perlmutter. And at some point my guess is, you've been 
called as an expert witness in a trial or you've advised in the 
past, and hopefully all the things that you've worked on have 
gone well, but this is complex and dangerous kind of work, is 
it not?
    Dr. Williamson. I would agree that it is, yes.
    Mr. Perlmutter. I thank Mr. Takano for giving me time. I 
thank all of you for being here. There's no real bad guy. We're 
trying to fix something that's been 100 years in the making, 
and we've got a lot of these in Colorado, and we need some help 
with treatment plants in Silverton. They need it on the Navajo 
Nation. This is a responsibility that we have as a Nation. 
Thank you.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from Michigan, Mr. Moolenaar, is recognized 
for his questions.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    I'd like to address these to Mr. Stanislaus. I wanted to 
ask you what lessons that you and the EPA have learned from 
this incident, this experience?
    Hon. Stanislaus. Sure. I mean, so far, you know, we've 
identified that we need to enhance the notification process 
with local and state governments. I issued a memo to that 
regard asking all the regions to work with state and local 
communities, an event like this, which potentially has broader 
potential impact.
    The review team also identified that there are a number of 
things that we could do and operationalize going forward by 
looking at and investigating with the private sector potential 
remote sensing tools to identify a pressurized situation where 
it's technically and from a safety perspective is really 
difficult to put a drill pad like it was in this location, 
incorporating worst-case scenarios in emergency response 
planning. So those are some of those, and some of that's 
contained in the internal review document, but it's ongoing 
lessons learned. I mean, we learn lessons from the thousands of 
sites that we get engaged in around the country.
    Mr. Moolenaar. And in terms of overall cost of this, 
someone had mentioned maybe $8 million is what has been spent 
so far. Is that accurate?
    Hon. Stanislaus. That is right. It's $8 million for the 
response costs so far.
    Mr. Moolenaar. And do you anticipate additional costs 
beyond that?
    Hon. Stanislaus. Yeah, I mean, certainly some additional 
costs. I don't know what that estimate is. There's still going 
to be some ongoing monitoring. We'll continue to work all of 
the stakeholders on continuing that monitoring and other kinds 
of elements to accommodate the stakeholders' requests.
    Mr. Moolenaar. And how do you--where do you get the funds 
for that? Is that from other programs that maybe of lesser 
priority that you'd shift within the EPA budget, or how--where 
would you get that funding?
    Hon. Stanislaus. Well, the budget and all the federal 
budget is fairly regimented. We have a fixed pot of resources, 
Superfund, kind of emergency response and removals, and what we 
do is really prioritize. You know, clearly there are priorities 
that come up and we need to respond to emergencies and 
prioritize as we go forward. You know, it's a tight budget and 
we've had declining resources over the years.
    Mr. Moolenaar. So it would come out of the Superfund budget 
projects that--lesser priorities would kind of go to the bottom 
of that list and you'd move that to this?
    Hon. Stanislaus. Well, yeah. We have a pot of money to make 
ourselves available to respond to emergencies on a regular 
basis, so, you know, we use that pot of money to respond.
    Mr. Moolenaar. And what--I have not heard--has EPA--
obviously has taken responsibility for this but has EPA 
acknowledged mistakes that were made that--you know, for 
instance, there's also this comparison, you know, are you--how 
would you treat a private actor if they were in this situation? 
Obviously you're in the position where you're investigating, 
you are conducting the operations, but then you're also 
responsible for any penalties. Would you treat a private actor 
differently than is--is there a conflict of interest here?
    Hon. Stanislaus. Well, we would treat the private actor 
identically. So for example, when an incident happens, what we 
ask--what we demand of the responsible party is to immediately 
go forward, expend resources, collect data immediately, analyze 
that data, provide water supplies as an example, and, you know, 
we would impress the unified command emergency response 
structure. So that is identical. You know, we would demand 
transparency, and I believe we are identically in transparency. 
I would argue, you know, very forward leaning on transparency.
    I mean, in terms of long term, you know, we're still in the 
midst of investigating. So I ask for internal view and the 
Administrator asks for internal review to quickly identify what 
happened here, how that should inform other sites immediately. 
You know, we also--there's also two other independent 
investigations, so we should have the Department of Interior's 
investigation done roughly--I know it's 60 days from the time 
it started, so I'm guessing it's about 40 days or so, and the 
Office of Inspector General of EPA is also conducting--so we're 
going to, you know, see all of what is identified. So again, 
you know, I have responsibility for the cleanup of contaminated 
sites around the country, you know, and we work with 
communities to protect public health and safety from the legacy 
of these sites. If there are lessons learned, you know, and if 
there are ways of holding people accountable, holding ourselves 
accountable in those documents, we will certainly look at that.
    Mr. Moolenaar. Do you think it would be----
    Chairman Smith. The gentleman's time is expired.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Moolenaar.
    The gentleman from California, Mr. Swalwell, is recognized.
    Mr. Swalwell. Thank you, Chair, and you know, to the people 
of the communities affected, you know, I do--I share, you know, 
my thoughts, my concerns. This was a tragedy. And to me, it 
seems like it's inherently dangerous work when you're dealing 
with mines. It's dangerous for the EPA, it's dangerous for the 
contractors, and it's awful when anything like this happens. 
And, you know, I don't agree with the name of the hearing, Mr. 
Chairman, but I do agree with the right to have a hearing about 
something that involves an important government agency. In my 
experience, these types of incidents will take some time to 
thoroughly be investigated and hopefully we get to the bottom 
of it, and I think this is a part of that process.
    Mr. Stanislaus, I just have a few questions. First, is it 
contemplated that there could be a breach of contract or 
litigation brought against the contractor or subcontractors 
involved? Is that possible going forward?
    Hon. Stanislaus. Well, again, we are going to evaluate the 
two other reports that are coming down, and we're going to have 
to evaluate more of the specific facts. We have one independent 
review, and you know, it speaks for itself that there was 
proper planning, the work plan seemed to be executed. There's 
potentially more than could be done in the future. So that's 
currently where we are.
    Mr. Swalwell. And Mr. Greaney, that's not a comment one way 
or another on your work, but I do want to highlight just to my 
colleagues on the other side that it does seem that if there is 
a right of action available against a private actor, that that 
is something that is possible. Is that right, Mr. Stanislaus?
    Hon. Stanislaus. That is right.
    Mr. Swalwell. And then I do--with that in mind, I would 
like to yield the rest of my time. I think it's important for 
the Member who's most closely affected by this to continue to 
have questions if he wishes. So Mr. Chair, the gentleman from 
Colorado, I'd like to yield to him if possible.
    Mr. Perlmutter. I thank my friend from California.
    Mayor Brookie, you did mention the Good Samaritan bill that 
was proposed by Senators Udall and Bennett and I think 
Congressman Tipton, which I generally support, but in this 
instance, it wouldn't have helped. I mean, we actually were 
working on a mine and there was a major release.
    Hon. Brookie. That's correct.
    Mr. Perlmutter. So in the--in connection with the $8 
million that the EPA has spent so far, what has been done for 
the town of Durango, if anything, with that $8 million? Can you 
tell us?
    Hon. Brookie. Well, perhaps Mr. Stanislaus could answer 
that, but, you know, we have submitted--we'll be next week 
submitting an invoice to the EPA for direct costs associated 
with emergency response, loss of sales of water in our case, 
and a number of other direct costs to the City of Durango. 
Obviously the business community will be submitting via the 
form 95s for any loss of their business. That would be the 
whitewater rafters, hotels, any of the public business, private 
businesses that would have a claim for loss of income and loss 
of business.
    Mr. Perlmutter. Okay. Mr. Stanislaus, the $8 million, and I 
know there was a previous question, what of that $8 million--
explain the mitigation that took place immediately after the 
release and how, you know, ,protecting the life and limb of 
your contractors and of your own personnel and then what you've 
done to slow down this release.
    Hon. Stanislaus. Sure. Immediately after the release, we 
kind of shored up the situation. We diverted the water so it 
could be treated, so we have treatment ponds diverting and 
treating the water. We believe we're capturing about 90-plus 
percent of the metals in a far better case than described in 
the video with the untreated water. We still have more to do in 
terms of a long-term solution. That is why I was in Silverton 
having that discussion.
    Mr. Perlmutter. So let me ask this question. In the video 
that Congressman Beyer showed us, there was a discussion of 
making the Silverton mining district or at least these mines, 
put them on the National Priorities List, make them part of a 
Superfund site. How would that affect your ability to pay for, 
you know, new treatment plants for the area, for the Navajo 
Nation? Can you explain?
    Hon. Stanislaus. Sure. By being listed on the National 
Priorities List, it makes that site eligible for a permanent 
and long-term solution. So in mining sites like this, one of 
the fundamental things that are done is a permanent water 
treatment system to handle the volume and really reduce all the 
contaminants, in this case, metals, before it enters into the 
rivers.
    Mr. Perlmutter. Thank you, and I thank my friend from 
California.
    Chairman Smith. Thank you, Mr. Perlmutter.
    Mr. Swalwell. Thank you, and I yield back.
    Chairman Smith. The gentleman from Texas, Mr. Babin, is 
recognized.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate that.
    Mr. Stanislaus, during the spill, President Obama came out 
and visited the region but he did not visit the site or meet 
with those who are affected by the spill. Did the EPA request 
that President Obama not visit the spill site?
    Hon. Stanislaus. Well, all I can tell you is that EPA 
shifted into emergency response. We had emergency response 
personnel working emergency response with local stakeholders. 
Administrator McCarthy did visit the area, met with local 
officials, really want to make sure that the emergency response 
is well managed.
    Mr. Babin. Again, I think, as someone mentioned earlier, I 
think it's ironical that she's not here today either. But let 
me ask, does it surprise you that President Obama visited the 
area but did not come to the site or visit with the folks who 
are affected as the Navajos were?
    Hon. Stanislaus. Well, all I can tell you is that from 
where I sit, you know, we want to make sure that the emergency 
response infrastructure is in place. We did that and unified 
command had the local government, the states and tribes 
involved. Administrator McCarthy did in fact visit all the 
local communities, visit the Navajo while she was there to 
gauge how the response was going and how we could be of 
assistance.
    Mr. Babin. All right. Well, then let me ask you this, a few 
technicalities. What was the relationship between the EPA and 
the Environmental Restoration LLC staff on site conducting work 
at this particular mine?
    Hon. Stanislaus. The----
    Mr. Babin. What was the relationship?
    Hon. Stanislaus. Well, they are a contractor who pursuant 
to a request for a proposal put in place a work plan to deal--
to address the work at this site. EPA oversees the work by the 
contractor.
    Mr. Babin. Okay. Does the EPA specify what exact work will 
be conducted and each step of the work?
    Hon. Stanislaus. Well, it's kind of a--it is a sequential 
process. So we issue a request for proposal detailing the 
particular circumstance we'd like the contractor to address. We 
ask the contractor to respond with the work plan and then there 
are other additional implementation kind of documents.
    Mr. Babin. Well, I just--I want to know, does the EPA have 
the final decision-making authority on this site?
    Hon. Stanislaus. Absolutely.
    Mr. Babin. Okay. Did Environmental Restoration LLC ever 
raise any concerns regarding the work to be conducted at Gold 
King Mine? We've seen some videos today which kind of alluded 
to that possibility. Had the Environmental Restoration, did 
they ever raise a red flag?
    Hon. Stanislaus. Well, what I am aware of is, we raised the 
issue of the particular circumstance at the Gold King Mine, we 
and the State of Colorado. That's the reason why we were there. 
And it's to deal with the particular circumstance. The 
particular circumstance was that there was a cave-in at the 
Gold King Mine area. There was water seeping from that. The 
contract was to address that particular situation while also 
addressing the mine beneath that, the Red and Bonita Mine, as 
well.
    Mr. Babin. So the cave-in was what--was that the exact 
cause of the spill?
    Hon. Stanislaus. Well, again, there's a preexisting 
condition, you know, going back over a decade or so. Initially 
the State of Colorado worked with the mining operator to deal 
with the cave-in situation, deal with the water emitting from 
the complex of mines. So that had been going on for years. 
They've addressed some of the cave-in. We got involved right 
around 2014 to deal specifically with the Red and Bonita and 
the Gold King Mine, developed a plan as you all have in front 
of you.
    Mr. Babin. Who were the folks that were operating the 
machinery that day? Were they EPA employees or Environmental 
Restoration employees? Who were they?
    Hon. Stanislaus. Well, they were subcontractors, as Mr. 
Greaney talked about. I don't have those individuals' names in 
front of me.
    Mr. Babin. But I just want to know who they work for.
    Hon. Stanislaus. Well, they ultimately work for EPA, 
absolutely.
    Mr. Babin. Okay. They were EPA employees but they were 
contractors?
    Hon. Stanislaus. No, no, no. They were contractors, 
subcontractors to the prime contractor.
    Mr. Babin. Not with Environmental Restoration?
    Hon. Stanislaus. Well, you know, on typical jobs like this, 
you have a prime contractor and you bring particular expertise. 
The subcontractor that you're referring to had a particular 
expertise in mining operations.
    Mr. Babin. It's unfortunate, very unfortunate thing to 
happen, and it brings to mind in North Carolina, we had a 
rancher or a farmer who accidentally spilled some cow manure 
into a local river and was fined $15,000, which is a lot of 
money for some folks, and I'd like to see some responsibility 
shouldered by the EPA here, and I'm very disturbed that it took 
24 hours to inform the folks downriver of the spill even 
occurring. Don't you think that's----
    Hon. Stanislaus. Again, as I outlined in my opening 
statement, there was immediate notification between us and the 
State as set forth in a contingency, in a plan for 
notification, but I also agree, an incident like this, we need 
to have broader notification, us, state and local governments 
and tribes, and make sure everyone is aware. All the 
notification did occur before any of the impacts of the spill 
reached them.
    Mr. Babin. I would imagine if you lived downstream, you 
would've wanted to be notified----
    Hon. Stanislaus. Absolutely.
    Mr. Babin. --very, very rapidly.
    Hon. Stanislaus. Absolutely.
    Mr. Babin. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Stanislaus, there was an article by the Associated 
Press back on August 20th in which the article says that the 
EPA is now downplaying the danger of the Colorado mine spill 
but concerns linger that contamination levels are pretty 
serious yet the EPA says that the contamination levels were 
returning to pre-spill levels and no threatens the rivers. Do 
you agree? Is that the EPA's position?
    Hon. Stanislaus. Well, EPA put in place an aggressive data 
program working with everyone in unified command that include 
the state, the tribes and all the local governments. We then 
went through a laboratory process and then compared that to 
preexisting levels and made a judgment once we achieved pre-
existing levels. We communicated that in unified command then 
the local governments made a decision about reopening the 
river.
    Mr. Palmer. The AP article also said that they made 
repeated requests to the EPA for information on pre-spill 
contamination so that they obviously could compare that to the 
current contamination levels. At the time of the article, the 
EPA had failed to respond to that request. Has the EPA provided 
that information?
    Hon. Stanislaus. Yeah, it is on our Web site where we have 
tables and graphs and the actual data that compares the data 
taken on various days to pre-spill conditions and other 
parameters.
    Mr. Palmer. So was it on your Web site around August 15th 
to 20th time frame? Was it there then?
    Hon. Stanislaus. Yeah, I don't have the article in front of 
me. I don't know what particular time frame they were talking 
about.
    Mr. Palmer. The article was on August 20th.
    Hon. Stanislaus. But as soon as we could collect and 
process the data, we posted it on our Web site. I mean, clearly 
there is a laboratory process, particularly with metals, takes 
time to analyze that, but as soon as we had that data 
available, we not only posted it in the press but immediately 
we communicated with state and local and tribal officials.
    Mr. Palmer. Okay. Are you satisfied with the levels of 
contamination of arsenic and lead and other contaminants that 
are currently in the river? Is that consistent with what you 
require from private companies in terms of wastewater 
discharge?
    Hon. Stanislaus. Well, what we addressed was whether the 
river has been restored to pre-spill conditions. However, the 
Animas River Stakeholders Group and the State of Colorado had 
long recognized that there was a whole load of contaminants 
going into the river and that is the reason I was in Silverton 
just last week at the request of local communities to examine 
the possibility of a long-term solution through a Superfund 
potential listing.
    Mr. Palmer. But you've approved it for recreational use 
again, and based on your analysis of the contaminants in the 
river, yet other health agencies have advised people not to 
drink the water and not to basically come in contact with the 
soil. That seems to me to be inconsistent with a water source 
being ready for recreational use.
    Here's the problem I've got with this, and I--you know, the 
EPA plays an important role, and I've been a vocal critic of 
the EPA. My problem with this is, there appears to be a double 
standard. It's been mentioned several times here. If this had 
been a private company, I don't think the EPA would share the 
same optimism if this had been a private company. I don't think 
the EPA would have handled them the same way that the EPA has 
handled itself in regard to Mr. Johnson's video and the obvious 
alterations to the video. I think it's problematic that the EPA 
is not doing the due diligence and investigating this and 
handling this the way they would if it were a private company. 
I mean, Mr. Babin mentioned a rancher in Texas. There's a guy I 
think in Wyoming who built a pond and they're fining him, what, 
$35,000, $37,000 a day. I just don't see--I see a real problem 
here with the way the EPA handles this and everything's fine, 
look the other way, there's nothing going on here, but you 
wouldn't do the same thing if it were a private company. You 
would destroy the company.
    Hon. Stanislaus. Well, all I can say is that from a 
transparency, taking responsibility for the spill, we've done 
it, and you know, EPA is involved in thousands of contaminated 
sites around the country. I take that responsibility very 
seriously. I want to make sure--because communities and states 
ask us to be involved because of the public health and 
environmental dimension of that problem. I want to make sure 
that work is done because ultimately I think we all want to 
address the conditions that resulted in locals asking us to 
provide assistance. So I am committed to learning the lessons 
from this site as well as others.
    Mr. Palmer. That is what we all want. That's what we want 
for Durango. That's what we want for the Navajo Nation. That's 
what we want in every community in the country, ever 
municipality that is under an enormous burden imposed by the 
EPA, and it appears to me, Mr. Chairman, that there is a double 
standard.
    I've gone over my time. I yield the balance. Thank you.
    Chairman Smith. Thank you, Mr. Palmer.
    And the gentleman from Oklahoma, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Dr. Benn, the EPA triggered a spill that has done damage to 
the Navajo Nation. They then took the lead in the aftermath of 
the spill and now they are investigating themselves. This seems 
like a clear conflict of interest. Does this concern you?
    Hon. Benn. Yes, it is a clear conflict of interest, and we 
have approached officials about trying to figure out if we can 
actually have somebody appointed other than the EPA to do the 
investigation.
    Mr. Bridenstine. Do you believe that the EPA will hold 
itself accountable? Earlier we saw a video from Representative 
Bill Johnson from Ohio, he had a video, and it indicated that 
maybe the EPA might not be totally forthright about how they're 
presenting themselves in this matter. I mean, is this of 
concern that maybe the damages might not all be prevalent 
because they're investigating themselves?
    Hon. Benn. Well, just to be clear about how they 
communicated information to us form the beginning, it wasn't 
until 24 hours later that they let us know what happened, and 
at the same time, when they did let us know, it wasn't really 
them that told us about what happened. It was actually the 
State of New Mexico that approached us and told us about all 
this information.
    Mr. Bridenstine. It appears Cynthia Kaufman, Colorado's 
Attorney General, called for a non-federal independent review 
of this matter. Is that correct? Are you aware of that?
    Hon. Benn. No, I'm not aware of that.
    Mr. Bridenstine. Well, that indicates that that's her 
intention. In your testimony, you state that the EPA region 9 
tour guide was with you on your site visit. Is that correct?
    Hon. Benn. Yes, sir.
    Mr. Bridenstine. You further stated that it appeared during 
your visit to the mine site that it was the first time an EPA 
region 9 official had visited the location. Is that to your 
recollection?
    Hon. Benn. Yes. When we were--we were actually one of the 
first ones up there. There wasn't too many other jurisdictions 
that had access to it. We kind of, you know, bogarted our way 
up there, and because EPA told us that water was clear.
    Mr. Bridenstine. Right.
    Hon. Benn. And we wanted to make sure, and when we got up 
there, obviously it wasn't.
    Mr. Bridenstine. Well, that was my next question here. You 
noted that yellow water was still exiting the mine at the time 
of your visit. Can you tell us a little bit more about what you 
saw in regards to the water still exiting the mine?
    Hon. Benn. It was still mustard orange, and we did see 
where they had put in the ponds, and then we saw how they were 
treating it with sodium hydroxide and a fluctuant actually that 
captures the metals, and we saw that on the day that we were up 
there.
    Mr. Bridenstine. And this was all coming from the mine at 
the time?
    Hon. Benn. Yes, sir.
    Mr. Bridenstine. This is a question for my good friend from 
New Mexico, Steve Pearce. He says that in New Mexico, about 60 
percent of the total surface water is in this watershed. The 
Navajo Nation is at ground zero as well.
    Mr. Stanislaus, is the problem going to be cleaned up in 
New Mexico? Is it now? It is going to be cleaned up?
    Hon. Stanislaus. Yeah, so we have worked with the State of 
New Mexico and other States and the Navajo Nation. So we 
provided data, and we've concluded the data has shown that it's 
been restored to pre-incident conditions. But there is a long-
term solution. There's lots of discussions by stakeholder 
groups about potential of Superfund and other vehicles. So as I 
identified in my opening statement, there is a load from mine, 
a lot of mines, about 330 million gallons per year, and the 
Animas River Stakeholders Group identified that concern as well 
as the State of Colorado as something--as there is a need for a 
long-term solution.
    Mr. Bridenstine. So can my friend, Steve Pearce from New 
Mexico, go home and tell his constituents that the drinking 
water is safe? Can he do that in good conscience right now?
    Hon. Stanislaus. Yes. I mean, what we've communicated with 
the State of Colorado--I'm sorry--the State of New Mexico is 
that the water has returned to pre-incident conditions.
    Mr. Bridenstine. I yield back.
    Chairman Smith. Thank you, Mr. Bridenstine.
    We have no other Members with questions so let me thank all 
of our expert witnesses today for their testimony. This has 
been a very informative hearing, and I think you've heard from 
Members on both sides of the aisle their keen interest in the 
EPA cleaning up the problem, making sure that it doesn't happen 
again, and looking forward to the conclusion of the 
investigation because we do want someone to be held 
accountable, and we want the EPA to take responsibility.
    Thank you all, and we are adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
